<html>
<title> - THE 2021 GAO HIGH-RISK LIST: BLUEPRINT FOR A SAFER, STRONGER, MORE EFFECTIVE AMERICA</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                      THE 2021 GAO HIGH-RISK LIST:
                    BLUEPRINT FOR A SAFER, STRONGER,
                         MORE EFFECTIVE AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 2, 2021

                               __________

                            Serial No. 117-6

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov                             
                             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-756 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Vacancy

                     David Rapallo, Staff Director
                      Emily Burns, Policy Director
                       Elisa LaNier, Chief Clerk

                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                                 ------                                
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on March 2, 2021....................................     1

                                Witness

 The Honorable Gene L. Dodaro, Comptroller General of the United 
  States, Government Accountability Office
    Oral Statement...............................................     5

Opening statements and the prepared statement for the witness are 
  available in the U.S. House of Representatives Repository at: 
  docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

  * Letter, Kansas Congressional Delegation; submitted by Rep. 
  LaTurner.

  * Report, Kansas Report on Unemployment Claims and Fraud; 
  submitted by Rep. LaTurner.

  * Letter, IRS Enforcement Letter from 88 Groups to the Biden 
  Administration and Congress; submitted by Rep. Ocasio-Cortez.

  * ``Who's Afraid of the IRS? Not Facebook,'' article, Pro 
  Publica; submitted by Rep. Ocasio-Cortez.

  * Questions for the Record: to Mr. Dodaro; submitted by Rep. 
  LaTurner.


Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are available at: 
  docs.house.gov.

 
                      THE 2021 GAO HIGH-RISK LIST:
                    BLUEPRINT FOR A SAFER, STRONGER,
                         MORE EFFECTIVE AMERICA

                              ----------                              


                         Tuesday, March 2, 2021

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:39 a.m., in 
room 2154, Rayburn House Office Building, Hon. Carolyn B. 
[chairwoman of the committee] presiding.
    Present: Representatives Norton, Lynch, Cooper, Connolly, 
Krishnamoorthi, Raskin, Khanna, Ocasio-Cortez, Tlaib, Porter, 
Bush, Davis, Welch, Johnson, Speier, Kelly, DeSaulnier, Gomez, 
Pressley, Comer, Jordan, Gosar, Foxx, Hice, Grothman, Cloud, 
Gibbs, Higgins, Keller, Sessions, Biggs, Donalds, Herrell, 
LaTurner, Fallon, Clyde, and Franklin.
    Chairwoman Maloney. Welcome, everybody, to today's hybrid 
hearing. Pursuant to House Rules, some members will appear in 
person, and others will appear remotely via Webex. Since some 
members are appearing in person, let me first remind everyone 
that pursuant to the latest guidance from the House attending 
physician, all individuals attending this hearing in person 
must wear a face mask. Members who are not wearing a face mask 
will not be recognized.
    Let me also make a few reminders for those members 
appearing in person. You will only see members and witnesses 
appearing remotely on the monitor in front of you when they are 
speaking in what is known in Webex as ``active speaker'' or 
``stage view.'' A timer is visible in the room directly in 
front of you.
    For members appearing remotely, I know you are all familiar 
with Webex by now, but let me remind everyone of a few points.
    First, you will be able to see each other speaking during 
the hearing whether they are in person or remote as long as you 
have your Webex set to active speaker or stage view. If you 
have any questions about this, please contact staff 
immediately.
    Second, we have a timer that should be visible on your 
screen when you are in the active speaker with thumbnail. 
Members who wish to pin the timer to their screens should 
contact committee staff for assistance.
    Third, the House Rules require that we see you. So, please 
have your cameras turned on at all times.
    Fourth, members appearing remotely who are not recognized 
should remain muted to minimize background noise and feedback.
    Fifth, I will recognize members verbally, but members 
retain the right to seek recognition verbally. In regular 
order, members will be recognized in seniority order for 
questions.
    Last, if you want to be recognized outside of regular 
order, you may identify that in several ways. You may use the 
chat function to send a request, you may send an email to the 
majority staff, or you may unmute your mic to seek recognition.
    Obviously, we do not want people talking over each other. 
So, my preference is that members use the chat function or 
email to facilitate formal verbal recognition. Committee staff 
will ensure that I am made aware of the request, and I will 
recognize you.
    We will begin the hearing in just a moment when they tell 
me they are ready to begin the live stream.
    [Pause.]
    Chairwoman Maloney. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    I now recognize myself for an opening statement.
    The U.S. Government is one of the most complex and 
consequential organizations on Earth. Responsible for serving a 
population of more than 330 million people and adding a new 
person at a rate of every 52 seconds, the Federal Government 
has a mission that is staggering in both breadth and depth.
    Every two years, the Government Accountability Office 
releases a blueprint for how to better meet this mission. The 
GAO High-Risk List identifies the areas of Federal operations 
most in need of improvement and transformation, complete with 
hundreds of ratings and specific recommendations for how to 
achieve progress. This year's report is titled ``Dedicated 
Leadership Needed to Address Limited Progress in Most High-Risk 
Areas,'' a message that cuts right to the heart of the 
challenge we face.
    Over the past four years, the objective metrics of the 
High-Risk List shows that the Federal Government improved less 
and regressed more than before the President took office. Of 
the 35 areas that were included on the list, 20 were stagnant, 
five regressed, and two new areas were added. The country now 
strives to recover from an unprecedented pandemic that has 
killed more than 500,000 Americans and reduced the average life 
expectancy by one full year, a toll that falls particularly 
hard on minority populations.
    Fourteen million Americans lost their jobs in the first 
three months of the pandemic, more than in two years of the 
Great Recession. Ten million are still unemployed, and that 
number doesn't even include the millions of Americans who have 
given up looking for jobs.
    As this silent war rages on in homes and hospitals, another 
silent battle is being fought in our IT networks by cyber 
attackers intent on stealing our intellectual property and 
undermining our national security. The SolarWinds breach that 
came to light last December as well as escalating targeted 
cyber attacks that have drained millions of dollars from 
struggling hospitals are just two examples of the threats that 
we know about.
    The economic toll of the pandemic also cuts across multiple 
high-risk areas, draining, draining our ability to react and 
straining our resources and inflicting damage on financial 
regulatory systems that remain dangerously fragmented after the 
last financial crisis.
    Our frontline healthcare and essential workers are 
traumatized and exhausted, suffering devastation that will 
redefine a generation. They will not forget that the Federal 
Government told them they were on their own when the ICUs 
filled up and the personal protective equipment was nowhere to 
be found. They will not forget the Federal Government put more 
lives at risk by contradicting basic scientific facts. They 
will not forget that the Federal Government used outdated IT 
systems that delayed their economic stimulus checks.
    I know our Federal Government is better than that. As one 
of our colleagues reminded me a few weeks ago, our Federal 
Government put a man on the Moon. So, setting up a functioning 
system for distributing pandemic relief payments quickly and 
accurately should be entirely attainable.
    It is attainable, as are the other recommendations in 
today's high-risk report, but it will take dedicated leadership 
to get there and not just by one person. No one person can 
rebuild the broken roads, prevent the next flood, or stop the 
next deadly virus from ravaging our cities and towns. No one 
person can remove the lead from the water, cover payroll costs 
for pandemic-starved small businesses, or save the 136 
Americans who will die of opioid overdoses today.
    No one person can do all these things, but when we all work 
together as effectively as possible, we can make progress. That 
is the work of Government and the work of today's report.
    The committee is honored to welcome Gene Dodaro, the 
Comptroller General of the United States and the head of the 
Government Accountability Office. The diligent and thorough 
work undertaken by Mr. Dodaro and his staff of dedicated 
professionals complements the mission of this committee, and we 
are grateful for it.
    The need for an effective, efficient, functional, and 
responsible Federal Government has never been greater. Congress 
and the executive branch must work together strategically on 
high-risk areas so Federal agencies are in the best position 
possible to restore the health, security, and prosperity of the 
Nation.
    Comptroller General, thank you for being here today, and I 
look forward to a wide-ranging discussion.
    Before I recognize the ranking member, I want to make one 
announcement. Mr. Dodaro is testifying in the Senate this 
afternoon at 2:30 p.m., which means we will have to end our 
hearing at 1:30 p.m.
    With that, I now recognize the distinguished ranking 
member, Mr. Comer, for an opening statement.
    Mr. Comer. Thank you, Madam Chair, for holding this very 
important hybrid, bipartisan hearing.
    And thank you, Comptroller General Dodaro, for your 
appearance here today. I know you are going to have a very long 
day.
    Today's hearing is exactly what this committee was designed 
to do, explore areas where there are high risks of fraud, 
waste, abuse, and mismanagement of Government resources. 
Congress needs to know what steps we can take to make the high-
risk programs more efficient and less susceptible to misuse.
    Taxpayers expect the Government to work for them, but far 
too often, the complexity of the Federal bureaucracy leads to 
risks of inefficiencies and mismanaged resources. I am glad the 
hearing today will shine a light on Federal programs that are 
especially susceptible to such risks, as well as identify 
solutions to ensure that the Government is working for the 
American people.
    GAO's High-Risk List has informed congressional oversight 
and decisionmaking since its inception in the 1990's. To be 
included on the list, the GAO considers several factors, in 
particular whether the area presents a risk of at least $1 
billion loss, involves public health, safety, national 
security, economic growth, or citizens' rights.
    The 36 separate areas identified in the 2021 High-Risk List 
are selected by GAO as having both qualitative and quantitative 
risks that present an elevated likelihood of fraud, waste, and 
abuse. Once on the list, the program must demonstrate a 
commitment to progress in five criteria, which GAO clearly 
outlines.
    Today's hearing should help us better understand these 
recommendations so this committee can use the tools to ensure 
these programs are better managed. The GAO estimates the High-
Risk List, combined with targeted congressional oversight, is 
responsible for a financial benefit to the Federal Government 
of $575 billion over the last 15 years and approximately $225 
billion since its last high-risk update in 2019. That is over 
half a trillion dollars saved for the U.S. taxpayers over the 
last 15 years.
    But there remains serious work to be done in addressing 
many of the deficiencies identified on the 2021 High-Risk List. 
In fact, I see this report as a blueprint for congressional 
action needed to make our Government work more efficiently for 
the American people, while managing resources and utilizing our 
tax dollars in the way that the law intends. Because despite 
progress made in multiple high-risk areas since 2019, the news 
is not all good. Only one area met all five criteria for 
removal from this year's High-Risk List, while two new areas 
were added to the list. Some areas regressed, while others did 
not improve in any of the five criteria.
    There is still a significant amount of work to be done, and 
I have said many times that this committee should be guided by 
its mission to root out waste, fraud, and abuse wherever it may 
be found. I am glad to see the committee finally addressing 
these issues.
    Since October, committee Republicans have shined a light on 
a $35 million contract to a get out the vote effort in 
California that appears to violate Federal law. Meanwhile, the 
Election Assistance Commissioner Inspector General has taken no 
action. That is exactly why it is important for this committee 
to focus on preventing mismanagement and frivolous spending 
like we are here today. That is our job on this committee.
    I look forward to hearing from our witness today about ways 
Congress can enhance its oversight and improve the areas 
identified on the High-Risk List to ensure that our Government 
works on behalf of the American people.
    Again, I thank the chairwoman for holding this important 
hearing, and I yield back the balance of my time.
    Chairwoman Maloney. Thank you. The gentleman yields back.
    I would now like to introduce our witness. Today, we will 
hear from the Honorable Gene Dodaro, who is the Comptroller 
General of the United States.
    The witness will be unmuted so we can swear him in. Please 
raise your right hand.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [Response.]
    Chairwoman Maloney. Let the record show that the witness 
answered in the affirmative.
    Thank you. Without objection, your written statement will 
be part of the record.
    With that, Comptroller Dodaro, you are now recognized for 
your testimony.

 STATEMENT OF HON. GENE L. DODARO, COMPTROLLER GENERAL OF THE 
        UNITED STATES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dodaro. Thank you very much, Chairwoman Maloney, 
Ranking Member Comer, members of the committee. I'm very 
pleased to have this opportunity to talk about GAO's latest 
high-risk update today.
    There have been some bright spots and improvement. However, 
our overall conclusion is that there has been limited progress 
in the majority of the high-risk areas. Twenty, as you 
mentioned, Chairwoman Maloney, have remained the same with 
their ratings. Five have regressed.
    Now on the positive side, seven areas made improvements in 
their ratings. One to the point, as Ranking Member Comer 
mentioned, of coming off the list. That's the defense support 
infrastructure area. They reduced their warehouse, office 
space, properties; reduced their leasing costs, as we 
recommended; taken action to get intergovernmental agreements 
in place to reduce their costs of operating their bases. And so 
we feel comfortable.
    Now when we take something off the list, that doesn't mean 
it's out of sight. So, we keep an eye on the area to make sure 
that it is, in fact, fixed.
    And now on the other side of the equation, we're adding two 
new areas to the High-Risk List. The first is the Federal 
Government's efforts to prevent, respond to, and recover from 
drug abuse. Unfortunately, from 2002 to 2019, 800,000 Americans 
have lost their lives to drug overdose. The latest period from 
May 1919 to 1920--May 1920 has the highest recorded number of 
deaths already, on a preliminary basis, of 80,000 people.
    This area needs greater Federal leadership, attention, 
coordination, and a complete national strategy that's executed 
properly, monitored, and refined going forward to combat this--
another public health crisis that we're facing in addition to 
the pandemic.
    Second, we're adding SBA's Emergency Loan Program. Now 
these loan programs have been a tremendous help to small 
businesses across the United States during the pandemic, and I 
want to emphasize that this designation does not detract from 
the good that these programs have done. However, we think, when 
you're spending close to $1 trillion, you also need good 
accountability and transparency. And by those standards, these 
programs have not met that goal.
    There is need for greater oversight and management for 
program integrity to minimize fraud and to provide better 
accountability to the taxpayer. SBA was unable to get an 
opinion from its financial auditors this past year because they 
couldn't substantiate loan balances and other issues.
    Now there are a number of existing high-risk areas that I 
want to call your attention to. First is the cybersecurity of 
our Nation. I first designated this a high-risk area across the 
entire Federal Government in 1997. We added critical 
infrastructure protection in 2003. The Federal Government is 
still not operating, in my opinion, at a pace commensurate with 
the evolving serious threats that are presented in this area. 
So, we've put forth a number of recommendations.
    Second is the Federal workforce. There are critical skill 
gaps. Twenty-two of the high-risk areas are on there in part 
because of skill gap in the programs. And the Federal 
Government is, in my view, not well postured as it needs to be 
to meet 21st century challenges.
    This committee is very familiar with the high-risk issues 
in the U.S. Postal Service and Census. So, I won't go into 
those in much detail.
    Limiting the Federal Government's fiscal exposure by 
managing climate risk is a very important issue. The Government 
is an insurer of flood insurance, crop insurance. It is the 
biggest property owner in the United States and land owner. It 
needs to limit disaster aid that's now over $1 trillion--or a 
half trillion dollars since Katrina took place by building 
better resilience in up front.
    So, the bottom line here is that only 12 of the high-risk 
areas have had leadership met as part of the criteria. So, we 
need much greater leadership on the part of the agencies, OMB, 
and continued oversight and engagement from the Congress. GAO 
is ready to do its part to help.
    Thank you very much. I'd be happy to answer questions.
    Chairwoman Maloney. Thank you. I recognize myself for five 
minutes for questions.
    Last Friday, our committee had a hearing on the SolarWinds 
breach and received really frightening testimony about how a 
suspected Russian state actor infiltrated the networks of at 
least nine Federal agencies and over 100 private sector 
companies, stealing their intellectual property, their plans, 
their research. Definitely a national security risk.
    Our attackers wreaked silent, invisible damage on our 
internal Federal networks for months undetected and would have 
remained undetected for who knows how long if not for the 
discovery by the cybersecurity firm FireEye. The vulnerability 
of Federal and private sector systems, including critical 
infrastructure of the Nation's energy, transportation, 
communications, and financial sector, is absolutely staggering.
    So, Mr. Dodaro, in the high-risk area of ensuring the 
cybersecurity of the Nation, how many of GAO's recommendations 
currently stand open to secure cybersecurity?
    You need your mic on.
    Mr. Dodaro. Since 2010, we've made 3,300 recommendations. 
Seven hundred fifty remain open at this point in time.
    Chairwoman Maloney. And how many would you describe as 
priority recommendations?
    Mr. Dodaro. There's about 67 priority recommendations 
remaining open. But I would underscore that all 750 can 
introduce vulnerabilities if not attended to.
    Chairwoman Maloney. This is unbelievably unacceptable. 
Which of these recommendations would have been most important 
in preventing or responding to the SolarWinds attack?
    Mr. Dodaro. There were two in particular. One dealing with 
the information technology supply chain. There are best 
practices that could be put in place to address that issue. We 
warned about it before, but we took an in-depth look. None of 
the 23 agencies that we looked at met all the best practice 
criteria. So, we made 145 recommendations across Government to 
better manage IT supply chain issues, which was a key weakness 
exploited during the SolarWinds attack.
    Second is to--and I'm pleased that Congress has acted on 
this recommendation, which is to place a statutory cyber 
coordinator in the White House that can coordinate activities 
across Government to support the Department of Homeland 
Security, to support OMB, and the agencies in the bridge to 
civilian and military components, along with the National 
Security Council. So, this is--this is an important area. So 
far, that position has not yet been filled, however.
    Chairwoman Maloney. Now if your recommendations had been in 
place, do you think it would have prevented this cyber attack?
    Mr. Dodaro. Well, it certainly would have led to an earlier 
discovery of the attack. It's hard to say that, you know, you 
can't have zero assurance. But we would have been better 
postured to detect the attack ourselves, to take quicker 
action, in my opinion.
    Chairwoman Maloney. In response to your statement, if you 
turn to page 168 of the report, which states--and I quote--
about the need to coordinate with a cybersecurity professional, 
``In light of the elimination of the White House Cybersecurity 
Coordinator position in May 2018, it had remained unclear what 
official within the executive branch is to ultimately be 
responsible for coordinating the execution of the 
implementation plan and holding Federal agencies accountable 
for the plan's nearly 200 activities moving forward.''
    So, Mr. Dodaro, GAO's assessment that the Trump 
administration's decision to eliminate the White House 
Cybersecurity Coordinator position, do you believe that that 
made the Nation more vulnerable to cyber attack?
    Mr. Dodaro. Well, I'm very pleased that the Congress 
created the position in statute, and I think having the 
position filled will help reduce the Government's 
vulnerability, if effectively implemented and the proper 
leadership provided across Government.
    Chairwoman Maloney. OK, and I think that the report later 
discusses the attack and stresses that this national cyber 
director needs to be filled. We support that. We passed it 
legislatively. It was removed by the White House, and it has to 
be put forward, a national cyber strategy needing a national 
director focused on all of your recommendations.
    I want to really point on something that came out of the 
hearing, and that was the need to share information. And I know 
that there has been legislation in calling for the sharing of 
information between the public and private sector on cyber 
attacks. There has been great resistance. Many people don't 
want to share that information. They don't want people to know 
that they had a breach, but this information has to be shared.
    And I want to know what your assessment would be if we 
required--we have, what, $1.5 trillion a year in Federal 
contracts that go out. That if you receive a Federal contract, 
then you must share that information with Government and the 
private sector so that we can better address attacks to our 
cybersecurity. Would you support that type of legislation 
requiring as part of a Federal contract, if you are receiving 
Federal money for research and you are breached, then you have 
to share that breach with the Federal Government and colleagues 
in the private sector to better combat it?
    Mr. Dodaro. That type of provision would be very helpful, 
Chairwoman Maloney. I appreciate that.
    You know, 80 percent of the computing assets in this 
country are in private sector hands. So, we can't effectively 
combat this issue without sharing between the private sector 
and the Government sector. Now there's reluctance to do that 
for liability reasons, for business reasons, but we have to do 
it in a confidential manner, where we can have and share this 
information both from the companies being affected, but also 
from the Government standpoint about threats that they're aware 
of that they should warn the private sector about because they 
have unique resources in Government that the private sector 
doesn't have.
    But so far, we're not at that point of having enough 
fluidity in the sharing of this information to have an 
integrated, coordinated effort to protect our Nation. And I'm 
hopeful that the Cybersecurity Coordinator can help--once 
that's filled, help build trust and build mechanisms to more 
effectively share this information.
    Chairwoman Maloney. Another thing that came out of that 
hearing was how vast the amount of information they could 
receive from the nine Federal agencies and some of the most 
important businesses in our country, leading businesses and 
leading agencies and technology that is vital for the survival 
of our country. Yet they got into one system and was able to go 
and climb into systems throughout the Government.
    And it seems to me we should study how you firewall it. 
Maybe the Government should not be connected to a system 
connected to the private sector. In the breaches that I have 
seen, most of them come in through the private sector and into 
Government through a connecting system. And I would like some 
research in that area of how we would firewall off defense, 
energy, areas that are critical to the infrastructure of our 
country.
    I want to thank you. I have been on this committee many 
years, and one of my favorite hearings is this one, when you 
focus on the needs of what we need to do to make our country 
stronger and more responsive to the people that we serve.
    With that, I now recognize the gentleman from Arizona, Mr. 
Gosar. You are now recognized, Mr. Gosar.
    Mr. Hice. Madam Chairwoman? Madam Chairwoman?
    Chairwoman Maloney. Yes.
    Mr. Hice. Are we all going to be able to get nine minutes 
of questioning?
    Chairwoman Maloney. Yes, you can. Mr. Comer has it or 
whoever he designates it to. This is one of the most important 
hearings that we have in our committee. It points out what 
needs to be done to protect our people and to make our country 
stronger, and I am going to be extremely lenient on the 
questions because we have the head here to give us direction, 
and we need to hear his comments and the questions.
    So, I am going to be very liberal on questioning because we 
need to get these answers. But I have been told to call on Mr. 
Gosar. Is that correct?
    Mr. Comer. Yes, yes.
    Chairwoman Maloney. And I will allow him eight minutes if 
he wants, or whatever. Mr. Gosar, you are now recognized.
    Mr. Gosar. Thank you, Chairwoman.
    And I totally agree with you. This is one of the most 
important hearings that we have in this committee.
    We are here to talk about the GAO's 2021 High-Risk List, 
which highlights major agency assets that have been either 
lost, stolen, damaged, wasted, or underutilized. There are a 
lot of programs you can dive into on this report, but there is 
something I want to focus on first.
    Mr. Dodaro, what if we were to tell you there is a massive 
Government program out there that is ripe` with abuse? This 
program undercuts Americans seeking work in the STEM field by 
allowing businesses to hire foreign workers at a discounted 
rate. This programs allows these discounts by ensuring these 
foreign workers don't have to contribute to FICA, which is the 
Social Security and Medicare taxes.
    This program also allows those same individuals the ability 
to withdraw from Social Security and Medicare even though they 
don't contribute. As I am sure you are aware, this is extremely 
problematic since Social Security will be insolvent by 2035 and 
Medicare by 2026. Oh, no, I take that back. Now that we have 
new actuarials, Medicare is insolvent by 2024.
    This program was also not approved by Congress and actually 
doesn't have a cap. Currently, no one knows how many 
individuals are on this program. Do you know of the program I 
am talking about? Because it didn't make it into your report.
    Mr. Dodaro. I think you're talking about the--there's a 
visa investor program where people can come in and invest?
    Mr. Gosar. No. The program is called the Optional Practical 
Training Program, also known as the OPT. This program was 
created by a rogue Department of Homeland Security in 2008 and 
has lasting impacts. Not only is this program reprioritizing 
Americans last in regards to Social Security and Medicare, two 
programs they have been paying in their whole lives, but also 
those graduating in the STEM field.
    Imagine being a young person nowadays going to college. 
Media, society, and even Members of Congress tell youngsters 
the importance of getting a degree in STEM. They go on to say 
how there is a massive shortage, so there is a great window for 
you to build a great career.
    You spend years completing your degree, and then you hit 
the job market just to be told that since you are an American, 
there are no--they have no interest in hiring you because they 
can hire a foreign worker for less with the same credentials, 
and then less money is charged them. Is it really a mystery 
that the Bureau of Labor Statistics found that for every two 
students graduating with a U.S. STEM degree, only one is 
employed in STEM? And that 32 percent of computer science 
graduates not employed in information technology attributed 
their situation to a lack of available jobs.
    Mr. Dodaro, I suggest GAO adds this program to its list of 
high-risk programs because, in my opinion and in the opinion of 
many others, this is a program that needs to be highlighted and 
addressed as abusive and ultimately bad for Americans.
    Shifting gears slightly, Mr. Dodaro, I am hoping that you 
can shed some light on the deficiencies related to the 
Pentagon's financial management. As you are aware, Pentagon 
bookkeeping is notoriously abysmal. In fact, DOD bookkeeping is 
so abysmal that areas within the DOD have been in the high-risk 
report since 1995.
    These failures are evident and materialize every year when 
DOD inevitably fails in its annual audit. On November 16, 2020, 
the Pentagon announced for the third straight year, it failed 
its financial review. The DOD estimates that it will not be 
able to pass an audit before 2027, or 37 years after it was 
required to do so by law.
    According to your report, the DOD uses their reporting 
tools to produce reports for high-level decisionmaking and 
reporting based on real-time data contained in its centralized 
data base. This tool enables DOD to produce reports on the 
status of audit findings and its efforts to address audit 
priority areas and material weaknesses.
    Your report also goes on to say that ``The data base 
information may be inaccurate, unreliable, and incomplete for 
management decisionmaking'' and that ``Without complete and 
reliable information on DOD's audit remediation efforts, 
internal and external stakeholders may not have quality 
information to effectively monitor and measure DOD's 
progress.''
    Yet every year, Congress fails to hold DOD accountable for 
these deficiencies during the appropriations process. We 
continue to distribute duties and responsibilities to various 
existing positions with less and less authority. While we must 
compete with our adversaries, we cannot ignore these 
deficiencies. In fact, I would argue that these deficiencies 
hinder our efforts to maintain a strategic advantage over our 
adversaries.
    So, Mr. Dodaro, why is the Pentagon estimating that it will 
not be able to pass an audit before 2027?
    Mr. Dodaro. One of the reasons, Congressman Gosar, is that 
for many years, I'd say almost 20, 25 years, DOD did not have a 
very good process in place and take this requirement for a 
financial audit very seriously, and Congress waived the 
requirement for them for a number of years in order to get 
their systems in place, which never happened.
    So, the past three or four years have been the best I've 
seen, and I've been monitoring this the whole 30-year period, 
where DOD is finally serious about having a financial audit 
done. They've corrected 25, 26 percent of all the weaknesses 
that have been identified.
    So, basically, the reason is they got a very late start. 
Their systems are antiquated. They need to make sure that they 
have more financial management personnel that are qualified and 
trained. That's one of the 22 areas on the list because of the 
need for closing skill gaps. And they need to fix these 
problems and to consolidate and modernize their financial 
systems.
    My hope is, if this progress is sustained, that they will 
get there ultimately because this is the one area in the 
Federal Government of the 24 largest departments and agencies 
that have never been able to pass the test of an independent 
audit, and it's needed.
    The other thing I would point out is they're already 
beginning to realize millions of dollars of savings as a result 
of doing the financial audit by identifying property and 
equipment that was not on their books that they can then use 
rather than reorder new equipment. So, it's already having very 
good benefits, and I think that will help sustain the progress.
    But you're right to point it out, and I think I would 
encourage Congress to keep monitoring the progress there very 
carefully.
    Mr. Gosar. Is some of the issues in regards to this audit 
sole-sourcing contracts?
    Mr. Dodaro. I don't know. I will get you an answer for the 
record there. I believe there were competitive--competed. But 
I'm not sure and--but I will find out and get an answer to you.
    Mr. Gosar. Thank you. Then also in that contract base, is 
it of question, the calibration in regard to Davis Bacon wages?
    Mr. Dodaro. I don't believe that applies to the financial 
audit, no.
    Mr. Gosar. But it does to DOD regards to fair and 
compensate contracting, does it not?
    Mr. Dodaro. Well, it does in regard to construction 
projects and other things, but I'm not sure it applies to 
professional services. But I'll get you--again, I'll get you a 
more definitive answer on that.
    Mr. Gosar. OK. One last question. What can we do, as 
Congress, in the Fiscal Year 2022 NDAA to accelerate the 
timeline for a successful Pentagon-wide audit? What can we do 
to put the carrot and the stick so that we actually get that 
compliance?
    I mean, 25 percent is pretty pathetic. And thank you for at 
least getting that. But I mean, we can't fully understand the 
ramifications unless we have the full information. So, what can 
we do to make your job better?
    Mr. Dodaro. I think you can continue to ask DOD for their 
plan to modernize their systems to get at the underlying cause 
for the problems and to make sure that Congress gives them 
funding to bring in all the qualified people that they need in 
order to fix these problems. That would--that's the key to 
expediting progress. That's how it's happened across the rest 
of the Federal Government.
    Mr. Gosar. Isn't it the purpose of the Antideficiency Act 
to do exactly that, that Congress appropriate their funds for 
the specific purpose and that DOD has to spend those funds 
accordingly to that purpose?
    Mr. Dodaro. Yes. But the Antideficiency Fund makes sure 
that the agencies don't spend more than what Congress gave them 
to. I mean, so it's basically the Empowerment Control Act is 
the one that makes sure that they spend it for the purposes 
that the Congress intended it to do.
    Now you asked me what Congress could do to help, and I--and 
of something that they could place in the NDAA, and I think it 
is requirements for them to provide good plans for improving 
their systems and to encourage them to have all the qualified 
people they need would be good steps for Congress to take.
    Mr. Gosar. Thank you. I yield back, Chairwoman.
    Chairwoman Maloney. The gentleman yields back. The 
gentlewoman from the District of Columbia, Ms. Norton, is 
recognized. Ms. Norton?
    Ms. Norton. Thank you, Madam Chair. Can you hear me well?
    Chairwoman Maloney. Yes, we can.
    Ms. Norton. I appreciate this hearing. I believe we have 
this hearing annually, and this High-Risk List keeps appearing 
before us.
    I must tell you, Madam Chair, that before being elected to 
Congress, I was a tenured professor of law. I recognize failure 
when I see it. So, I would like to discuss changing our 
approach in at least some ways.
    As I looked at this list and I considered my own 
responsibilities and the committees on which I serve, I thought 
one way to go with this is to look for win-win opportunities 
when it comes to high-risk areas. And so I looked for such 
areas where you have the same investment because that is going 
to be an issue. Money is always an issue. And the same, time 
and resources.
    And the reason I am looking at a win-win is because of my 
service on the Transportation and Infrastructure Committee, and 
we have just gotten a bill in the reconciliation package. And 
it is, of course, one of the high-risk areas that I think 
presents us with an opportunity for a win-win.
    So, my question for Mr. Dodaro is, first as I understand 
it, I believe you have just testified in response to a question 
from one of my colleagues that 80 percent of the--of this issue 
is in private hands. Is that not the case?
    Mr. Dodaro. Yes. So, in talking about computing, the 
computing assets, yes.
    Ms. Norton. So, progress in this area hinges really on 
congressional action, the action we take. We in the Congress 
takes. Is that correct?
    Mr. Dodaro. That's part of the issue, but the executive 
branch needs to execute as well and to gain the cooperation of 
the private sector, particularly for critical infrastructure 
protection.
    Ms. Norton. That is where I want to go, to critical 
infrastructure protection, because the President, President 
Biden, has before us a Build Back Better agenda that would 
invest $2 trillion to improve the Nation's infrastructure and 
surface transportation system. That is of special interest to 
me because of the committee on which I serve. I also know that 
the American Society of Civil Engineers reports that 1 out of 
every 5 miles of highway pavement in the U.S. is in poor 
condition.
    So, then I looked at infrastructure itself because of my 
interest in that area. That The Build Back Better plan would 
electrify various forms of surface transportation. I think we 
are already beginning to see electric cars or electric 
transportation, surface transportation, here in my own 
district, in the District of Columbia.
    It would electrify various forms of surface transportation, 
and that would include, of course, the kind of surface 
transportation that is used every day, like commuter trains and 
school buses, transit buses, ferries, passenger vehicles. All 
of that is on the horizon, while allocating flexible Federal 
investments to enable municipalities to install high-rail 
networks and improve existing transit.
    So, looking forward, Mr. Dodaro, would infrastructure 
improvements create jobs and cut emissions as a prudent 
investment to address multiple high-risk areas all at one time?
    Mr. Dodaro. I think it's very important that we, as a 
country, invest in our infrastructure. The surface 
transportation infrastructure area has been on our High-Risk 
List for over 13 years. We need to have the type of financing 
and support available for improving surface transportation. In 
the cyber area, we've made recommendations that there need to 
be more investment in the electricity grid and other areas to 
build in better resilience to those areas.
    So, there's a wide range of needs in the infrastructure 
area. It would directly address some of the areas on the High-
Risk List and, I think, you know would be most appropriate.
    Ms. Norton. Thank you very much.
    And there you have it, Madam Chairman--Madam Chair, a win-
win matter for us to consider, rather than coming back every 
year to repeat our failures.
    I yield back.
    Chairwoman Maloney. I agree. The gentleman from Georgia, 
Mr. Hice, is recognized for five minutes.
    Mr. Hice. Thank you, Madam Chair.
    And thank you, Mr. Dodaro, for being here with us again 
today.
    Isn't it true that there are several programs that have 
been on the list ever since the High-Risk List was implemented 
back in 1990, I believe?
    Mr. Dodaro. Yes. There are 5 charter members remaining of 
the 14 that were on the list at that point. They're some of the 
biggest programs in the Government--weapon systems acquisition, 
Medicare, for example.
    Mr. Hice. Right. And not only are those founding members, 
as you say, but we have a lot of other veteran members that 
have been on since the late 1990's or early 2000's as well.
    Is there any kind of repercussion, such as withholding 
certain amounts of funds, money that they can receive or any 
other type of repercussion for agencies or agency organizations 
that remain on the High-Risk List year after year after year?
    Mr. Dodaro. Nothing other than what Congress may impose on 
individual areas. For example, the DOD infrastructure support 
area we've taken off the list this time, Congress required 
regular hearings where they had DOD come up. They had GAO 
continue to investigate in it. And Congress stayed on them with 
requirements in the National Defense Authorization Act until it 
was improved.
    So, congressional oversight and actions. In some cases in 
the past, there's been funds withheld for modernization efforts 
until they develop proper plans and institutions. There's no 
sort of generic----
    Mr. Hice. I get that, and you are spot on. There is no 
question the role of Government oversight. But I am wondering 
from a legislative perspective to ensure--if there is 
ramifications? Everyone works off incentives. Our free markets 
work off incentives, and where there are incentives to improve, 
people tend to improve. But if there are no incentives to do 
so, then people, organizations--in this case, organizational 
groups stay on the High-Risk List year after year after year.
    Would there be wisdom in having some sort of incentive 
program or ramifications for these agencies to get off the 
list?
    Mr. Dodaro. Whatever incentives could be craft--crafted 
would be helpful.
    Mr. Hice. OK.
    Mr. Dodaro. But in crafting of them, they'd have to be 
careful because some of them provide essential services to 
people, and you wouldn't want to interfere with Medicare 
payments, you know, for people in need of healthcare----
    Mr. Hice. Sure.
    Mr. Dodaro [Continuing]. Inappropriately. But there--so 
you'd have to tailor the incentives, and you know, it'd be 
better if there were positive incentives, but if there are 
incentives that--or the things you want to put in as penalty 
type of things, that has to be carefully crafted.
    Mr. Hice. Right. And that is a point well taken.
    But at the end of the day, I mean, don't we have to ask 
ourselves what is the effectiveness of having a High-Risk List 
if there is no incentive for agencies to get off it? I mean, 
what are we ultimately accomplishing? Just it is almost like 
this has become the norm for certain agencies just to be on 
there every year.
    Mr. Dodaro. Well, as pointed out earlier, in the last 15 
years, the financial benefits have been over $575 billion. So, 
we've saved--you know, there's been a lot of progress in saving 
some of them money.
    Mr. Hice. For those agencies that have responded.
    Mr. Dodaro. Well, even--even some that are on the list. I 
mean, some of the biggest savings, for example, have come in 
the weapon systems area, where they've reduced the cost growth.
    Mr. Hice. Right.
    Mr. Dodaro. And in the Medicaid program by making some of 
the demonstration projects now budget--they're supposed to be 
budget neutral, budget neutral or not. So, that's been $10 
billion.
    So, a lot of the financial benefits come from programs that 
are still on the list that are making incremental progress. 
They don't come from----
    Mr. Hice. OK, I get you. But we still have a long ways to 
go, obviously, when looking at all this?
    Mr. Dodaro. Oh, no, clearly. Yes.
    Mr. Hice. I am going to try to stay within my five minutes. 
So, let me just ask you this one other question that has really 
been on my mind. Is there any relationship between IT 
modernization and these agencies that stay on the High-Risk 
List? In other words, those that year after year after year are 
on this list, are they also primarily the ones who are failing 
to modernize their IT?
    Mr. Dodaro. There are clearly cases of that. It's not 
universal. One primary case would be the Veterans 
Administration, both in healthcare, acquisition management, and 
other areas. The DOD financial management area, we just talked 
about. So, there clearly is an interrelationship between a lack 
of ability to modernize. There's a relationship in the high-
risk areas. These legacy systems are a millstone around the 
neck of the Federal Government from a security standpoint.
    Mr. Hice. Right.
    Mr. Dodaro. And many of them are 40, 50 years old, and they 
were never developed with security concerns in place. So, 
there's interrelationship between IT and the cyber areas.
    Mr. Hice. That may be one area we could look.
    Mr. Dodaro. That's definitely a fruitful area to pursue, 
Congressman.
    Mr. Hice. OK. All right. Thank you very much.
    I yield back.
    Chairwoman Maloney. The gentleman yields back. The 
gentleman from Massachusetts, Mr. Lynch, is recognized. Mr. 
Lynch?
    Mr. Lynch. Thank you, Madam Chair and to the ranking 
member.
    Welcome back, Gene. Good to see you. Thank you for your 
great work and for the work of your team.
    As the chair has said, this hearing is one of the most 
valuable I think for Congress to focus on this High-Risk List, 
and you have really been very helpful in getting us to focus 
when we have got so many issues that are out there that need to 
be addressed.
    Now DOD in 2020 was slated to spend about $1.8 trillion in 
taxpayer money to acquire about 106 different weapon systems. 
And what really concerned me deeply is that the level of 
vulnerability we have, because these weapon systems are so, so 
complex, and we could talk about, you know, our satellite 
system, the hypersonic weapon systems, the F-35, you know, the 
Aegis Destroyer systems. All of it is heavily dependent on 
software, on cybersecurity in order to optimize the value to 
the warfighter.
    So, what I am concerned about, and this is especially 
relevant after the SolarWinds hack, you mentioned in your 
report--and I will quote from the Director of Operational Test 
and Evaluation. He said that nearly every warfighting and 
business capability is now software-defined. Simply put, the 
systems, whether it is the missile system or ships or the F-35, 
all of that is dependent and doesn't work if the software 
doesn't work. And we are likely to upgrade a system by 
installing new software than by replacing hardware.
    However, in your report--and I am thankful for it--your 
most recent high-risk report, the Director also reported that 
the Department ``lacked testing personnel with deep 
cybersecurity expertise.'' The Director also stated that, 
``Without substantial improvements to cybersecurity test and 
evaluation, especially in the workforce, DOD risks lowering the 
overall force readiness and lethality'' of our weapon systems.
    So, can you talk about that aspect of your report? Because 
I think, look, the costs are completely out of control, and the 
schedules, we are falling years and years behind on some of 
these complex systems. And even the asymmetry of the threat 
environment out there, you know, a handful of good hackers can 
keep thousands of our people on the defensive end busy just 
trying to protect against that small group. So, if you could 
talk about that aspect of your report, I would appreciate it.
    Thank you.
    Mr. Dodaro. Yes. A few years ago, we started looking at the 
focus the DOD had on cybersecurity and developing new weapon 
systems, and they really weren't focused on it very well. When 
they did look into it, it showed extraordinary vulnerabilities. 
And so we became concerned. So, we've looked more at it. We 
made some recommendations, and they're gradually improving.
    But they're not to the point of where they need to be in 
the development of new weapon systems going forward. So, we're 
watching that very carefully. It's very concerning, and this is 
true of many critical functions. Not only the DOD, but in the 
private sector and elsewhere, because most things now, our 
industrial control systems, everything is software dependent or 
connected to the Internet that would have problems. So, this is 
problems that we see as well in the GPS systems.
    Mr. Lynch. Is this a pipeline problem where we are not 
developing the personnel to do this work, or is it the private 
sector is siphoning away all the good talent with better 
salaries and things like that so that from a personnel 
standpoint we are having a difficult time competing?
    Mr. Dodaro. Yes. Well, there's definitely that element to 
it, and I'll ask Nick Marinos, our cybersecurity expert who 
looked at the workforce issues. But I think you have multiple 
facets of it. You definitely don't have enough people to 
provide services to both the private sector and the Government. 
So, we need to increase the pipeline. There's no question about 
that.
    Mr. Lynch. Yes.
    Mr. Dodaro. And a number of universities now are starting 
to have cybersecurity programs. University of Maryland has one. 
I've met with the professors there. We were actually in the 
classrooms giving case examples in how you could--and we're 
pulling people in from the Government. So, and I work with 
Virginia Tech and some other places.
    So, we've got to increase the pipeline. We'll never be 
competitive in the Government for services from the private 
sector in this arena. So, we use contractors a lot, which is 
fine, and we're going to have to use contractors to help. But 
the Government has got to have an ability to oversee the 
contractors effectively and to have the patience and the 
discipline necessary to make sure that these areas are attended 
to before they rush into production.
    That's the biggest problem we've seen is where they want--
the technology is not mature enough, including cybersecurity, 
but other parts of maturity in the technology before we want to 
rush it into production. So, that's an area where, you know, 
congressional intention is important, but we have to increase 
the size of the workforce in the United States. And whatever 
can be done in that area I think is terribly important.
    Mr. Lynch. Well, I thank you for your service and your 
assistance in this matter.
    And Madam Chair, I yield back. Thank you.
    Chairwoman Maloney. The gentleman yields back. The 
gentleman from Ohio, Mr. Gibbs? You are now recognized, Mr. 
Gibbs.
    Mr. Gibbs. Thank you, Madam Chair.
    And thank you for being here today.
    Let us talk a little about the Post Office. The Postal 
Service has lost $87 billion over the past 14 fiscal years, 
including $9.2 billion in Fiscal Year 2020. Is that correct?
    Mr. Dodaro. That sounds about right.
    Mr. Gibbs. And they expect to lose about $9.7 billion in 
Fiscal Year 2021. Given the serious financial disaster looming 
at the Postal Service--and also their service has, you know, 
just gone to pot--wouldn't you agree that congressional action 
is urgently needed to bring reform and that mere half measures 
and band-aids would be unacceptable?
    Mr. Dodaro. Absolutely. I have testimoneys dating back 
several years that have Congress needs to urgently act on the 
Postal Service. So, I'd certainly believe it now. I've believed 
it for a while.
    Mr. Gibbs. If Congress addresses the prefunding of Medicare 
integration, would that be enough to permanently fix the Postal 
Service financial situation, or would it just make the balance 
sheet look better at the time?
    Mr. Dodaro. It would--it wouldn't fix the underlying 
business model problem, no. It would help alleviate some of the 
current fiscal stress, but not fix the fundamental----
    Mr. Gibbs. So, we also have to implement operational and 
structural reforms?
    Mr. Dodaro. Yes. Yes, you need structural reforms.
    Mr. Gibbs. Does your agency suggest any structural reforms 
or----
    Mr. Dodaro. Yes. Yes.
    Mr. Gibbs. Can you specify?
    Mr. Dodaro. Well, we think--I mean, the fundamental issue 
here is you have a business model that's completely broken. 
It's been disrupted by technology, and that's been accelerated 
by the pandemic. And it accelerated during the global financial 
crisis where first-class mail is dropping, which is where they 
had a competitive advantage, you know? They were basically a 
monopoly from that standpoint.
    And the Congress has expected them to operate like a 
business, but the model is broken. So, there has to be a 
determination here because nobody wants to give up some of the 
services that the Postal Service is providing--six-day 
delivery, universal coverage, rural area coverage, and other 
areas. And our recommendation, there needs to be an agreement 
within the Congress about what services do you really want, and 
does the model where you have a Postal Service that's supposed 
to operate like a private sector really the model that you 
want? Or do you want something like that, but there's a--
there's a commitment by the Congress to provide additional 
funding there, too, to have a floor of service required.
    So, you need to figure out what services you want to 
provide, how you want to pay for them, and then structure a 
governance structure and an organization that fits that on a 
sustainable basis going forward.
    Mr. Gibbs. Last week, Postmaster General DeJoy testified, 
and of course, he is working on reforms. And one thing I 
questioned--I was concerned about is in their reforms and their 
projections going out I think it was 10 years, they are 
projecting more volume. And what would you think, are they 
going to actually have more volume?
    Obviously, the economy grows and everything else, but we 
are seeing what is happening in the private sector, the Amazons 
of the world. Do you think it is prudent for them to base their 
projections on a significantly increased volume that they will 
be handling, or is that something they should not be doing?
    Mr. Dodaro. Yes. Well, I haven't--we haven't looked at 
their projections lately. I'd be happy to do so. But I mean, my 
offhand reaction to that is that you don't want to be overly 
optimistic because in the package area, they have competition. 
And the competition has been moving out, and they rely on the 
post office particularly in rural areas, where it's not cost 
effective. But where it's cost effective, those companies are 
moving in that area and are having services--Amazon and 
others--delivering their own packages and things.
    Mr. Gibbs. I totally agree with you. There is competition 
in the packages. That is obvious. But I would also argue that 
the competition might even be even greater in the first-class 
postage because of the use of online, Internet. I told him last 
week that I refuse to mail a check in the mail anymore because 
I don't have confidence in the system.
    And so I think they are going to have more first class is, 
you know----
    Mr. Dodaro. Well, I think you're going to--you have a 
generation now, as the generations age, they're not using mail. 
I mean, even my children don't even check their mail that 
often, you know, because they're using text and they're using 
other things.
    Mr. Gibbs. I certainly agree, and I made that point. I'm a 
baby boomer, and I look at the millennials and the Generation 
Zs. If I am doing this as a baby boomer trying to not use the 
mail because I don't have confidence anymore, that is why my 
argument about their increased volume and everything else, I 
think that they are maybe singing in the wind.
    But anyways, appreciate your comments. Thank you.
    Mr. Dodaro. Sure.
    Mr. Gibbs. I yield back.
    Chairwoman Maloney. The gentleman yields back. The 
gentleman from Tennessee, Mr. Cooper, is recognized. Mr. 
Cooper, you are now recognized.
    Mr. Cooper. Thank you, Madam Chair.
    Congratulations, Gene, on another superb biennial report.
    I would like to focus my comments on how we can help you 
humanize that report because, unfortunately, with over 300 
pages, when so much of it is mind-bogglingly complex, the media 
and our constituents back home will miss the fact that your 
report really is a feast for those of us who hate waste, fraud, 
and abuse.
    So, I want to offer three suggestions as ways we might be 
able to keep this report in the news longer and help the news 
focus more on the details. Because a detail in your report is 
still oftentimes a multibillion dollar, if not a trillion 
dollar, matter.
    No. 1, I would like to suggest that as great as your report 
is, it is almost too much to swallow all at once. When you were 
talking about $6.6 trillion in annual outlays from the 
Government, that is to say even a small corner of the report 
can be an incredibly large and important area. I don't know if 
there is a way that maybe we could parcel this out over some 
time period so that we have weekly scandal that we could look 
into or weekly waste, fraud, and abuse thing that we could 
attack.
    No. 2, I noticed in your report that you really don't even 
look at anything smaller than $1 billion in money at risk. And 
that is entirely appropriate for your report, but it seems to 
me that we might be able to farm out some of these areas that 
are smaller than $1 billion but still very much worth pursuing 
so that we could get, I don't know, maybe agency IGs to be held 
responsible for the items under $1 billion. Because for the 
folks back home, cutting things off at anything smaller than $1 
billion as essentially budget dust, that is hard to explain 
back home.
    My third point is this, and one of the previous questioners 
was getting at it. As good as congressional oversight can be, 
and I am glad that the DOD infrastructure has made some 
improvements, I was heartened to see, for example, that the 
U.S. Army in the National Capital Region in the last 10 years 
has reduced its leasing requirements from 3.9 million square 
feet to only 1 million square feet. That is saving us like half 
a Pentagon just right there, and that is just because we 
tightened up a little bit of the management for one of the 
military services.
    But I am worried that we need some sort of mechanism like 
maybe freezing the budget of an agency that doesn't respond to 
your request. Because when you mentioned the five charter 
members that have been on your report since the beginning, that 
is pretty embarrassing that we haven't been able to graduate 
those charter members into reformed entities that have taken to 
heart your recommendations and like the Pentagon should have 
done, what, 20, 30 years ago, actually pass an audit.
    So, these are just three areas I think where we can work 
more effectively together so that we can make your report even 
more effective than it already is because the savings you have 
already achieved are monumental and wonderful, but there is so 
much more that we can do together. So, I just would like your 
comments on my three comments.
    Thanks.
    Mr. Dodaro. Yes. First, with regard to the focus of the 
report being broad, we only do this once every two years. And 
what's been done in the past that I found effective is a series 
of hearings that then delve into individual areas in more depth 
over a period of time. Because what we're trying to do when we 
do this at the beginning of each new Congress is to help set 
the oversight agenda for the Congress for the entire two-year 
period.
    And so, you know, that's still possible to take each of 
these areas and have more hearings on them. Other committees 
have these hearings, the authorizing committees, the 
appropriation committees as well. This committee could pick a 
subset of issues, focus on them in more in-depth work. I've got 
plenty of experts in GAO who can come and testify, get down to 
the real nitty-gritty details in those areas.
    Second, on the billion dollar cut, that's just for the 
high-risk areas. We look at a lot of programs and activities 
that are below $1 billion in GAO and issue regular reports on 
that. We issue 600 or more reports every year on all facets of 
the Government.
    Also, it can be less than $1 billion if it has public 
health and safety risk or national security risk or other 
areas. And so the dollar threshold is only one of very many 
factors that we consider in designating them in the other 
areas.
    The last area that you mentioned I think is important, but 
that's really a policy followed by the Congress, and I think it 
has to be tailored to each individual area that's on the list 
to make sure that the incentives work in a proper way, and we 
don't actually cause people to game the systems, and not fix 
the problem, get around the penalties or incentives that are in 
place. That's been the case in the past, and I think the best 
thing--what I'm going to try to do, Congressman Cooper--and I 
appreciate your comments on the report--is I regularly meet 
with the heads of the agencies once they're confirmed to try to 
get them to focus on these areas.
    Where I've been successful in that regard, and OMB has been 
engaged. Really, OMB hasn't been engaged over the past few 
years in this area because some of these require resource 
investments to fix as well as other areas. Where OMB is engaged 
and the Congress is engaged on a continual basis, those are the 
ingredients for success and things can come off the list.
    And one of the reasons some of these areas are on the list, 
like Medicare, is the entitlement programs are on basically 
automatic pilot unless there is a change in the requirements. 
They don't go through--a lot of these programs don't go through 
the annual appropriation process. So, there could be other ways 
of getting at some of these programs.
    So, I'd be happy to work with the Congress on implementing 
all of your suggestions, more focused attention on individual 
areas, crafting incentives to try to provide positive 
improvement at a quicker pace over time, focusing in on smaller 
areas that may not have the dollars but have, you know, an 
outsized impact on the public and their health and safety.
    Mr. Cooper. Thanks, Gene.
    Madam Chair, I yield back. Thanks.
    Chairwoman Maloney. The gentleman yields back. The 
gentlewoman from North Carolina, Mrs. Foxx, is recognized for 
five minutes or as much time as she may consume.
    Ms. Foxx. Thank you, Madam Chairman, and thank you very 
much for having this hearing.
    And Mr. Dodaro, we really appreciate you. And I want to 
followup on one comment that our colleague Mr. Cooper brought 
up, and that is I think it is troubling to me and to the 
American people that we don't put groups on the High-Risk List 
until the exposure for loss is at least $1 billion. You know, 
that is a big number for us, but I am glad to hear what you had 
to say about we all know--I think most of us know that you are 
looking at things that have exposure to less than that when you 
are asked to do that.
    And I certainly appreciate the work that you have done on 
looking at programs that come under the jurisdiction of the 
Education and Labor Committee, and you all have done a great 
job on that. So, I really appreciate what the GAO does. I think 
we all have to remember that we are talking about hard-working 
taxpayer dollars all the time, and I appreciate it.
    A new addition to the High-Risk List this year is national 
efforts to prevent, respond to, and recover from drug abuse. 
Over the past few years, Congress has authorized billions of 
funding through legislation such as Comprehensive Addiction and 
Recovery Act, CARA, and SUPPORT for Patients and Communities 
Act. Would you say that the billions in resources provided 
these and related legislation is vulnerable to waste, fraud, 
and abuse?
    Mr. Dodaro. I'd have to go back and take a look at that. 
But which legislation again, Congresswoman?
    Ms. Foxx. CARA Act and SUPPORT for Patients and Communities 
Act. We have some real concerns on this, and I wonder if you 
looked at how--has GAO looked at where the billions of funding 
Congress has passed to fight the opioid crisis has actually 
been spent? Has anyone asked about that?
    Mr. Dodaro. Yes, let me ask Ms. Clowers. She's on the line. 
Nikki, do you--are you familiar with these programs?
    Ms. Clowers. I am. And Representative, we are actually--we 
have ongoing work right now looking at the uses of the opioid 
funding. As you noted, billions have been allocated, and we are 
in the process of studying how those moneys have been used.
    Ms. Foxx. Yes, and I think in particular because this money 
has been put out in grants to the states and local government, 
we need to expect and demand accountability, like have there 
been fewer overdoses? Are more lives being saved?
    So, I think too often we never get accountability for these 
funds, and the emphasis, it seems to me, should always be 
there. However, what we are hearing is increasing rates of drug 
overdoses in the 12-month period ending May 2020. So, we have 
no way of knowing, as far as I know, again what the impact has 
been on these grants and maybe what the impact has been from 
COVID.
    I think there needs to be some emphasis there, too. So, I 
hope you all will be looking at that.
    Mr. Dodaro. We will. We will. Go ahead Nikki.
    Ms. Clowers. Yes, ma'am. I am sorry. Yes, ma'am. It is a 
really good point, both in terms of the grants to the state and 
local governments, but also it is across the Federal 
Government, too. There is about a dozen Federal agencies that 
are involved. And so finding--having that transparency and 
visibility is important, and we will bring that to you because, 
as you said, the overdose deaths have increased by May 2020. 
But then also projections in terms of the impact on COVID that 
deaths have increased, overdose deaths have increased to about 
83,000 during the period of last year, which is very 
concerning.
    Ms. Foxx. And I think, to go back to what you said earlier, 
Mr. Dodaro, that we need to have some feedback from you all on 
what needs to be done to tighten up these programs a little 
bit.
    I have one more question. As we all know, the Post Office 
is repeatedly on GAO's High-Risk List. The Postal Service is 
not making required payments to fund the postal retiree health 
and pension benefits, and we had a hearing last week with the 
Postmaster General. So, what congressional action do you 
believe is necessary to address this issue? It is very timely 
that you are here to be able to talk about that in conjunction 
with the hearing last week.
    Mr. Dodaro. Yes. Well, I think, in the short term, the 
Postal Service needs some, you know fiscal help and release. 
And I know there's been discussions about not requiring pre-
funding anymore. My only caution there is if Congress decides 
to go that way that according to our calculations, the fund 
would only be enough for the next 10 years to pay for the 
retiree healthcare costs, and then there would be a payment of 
our estimate is $7 billion a year that our Postal Service would 
have to come up with to pay on you go basis.
    So, there may be a compromise between not paying at all and 
paying a more modest amount into the fund so you don't have all 
of a sudden, you know, a $7 billion bill hits you on a year 
down the road. So, we don't want to kick the can down the road 
and have it explode in our face later, and I think so there'd 
be caution on that front.
    I know there's some discussion about using Medicare program 
that has some options, but there are problems with the 
Medicare. The Medicare hospital trust fund is estimated by 
2024, which isn't that far away, to only have 83 cents to pay 
on the dollar. So, we're shifting part of the problem there, 
where we already have a problem.
    So, that would help create some room for the Postal 
Service, but they need fundamental reform, as I mentioned 
earlier in my comments to the gentleman, Congressman from Ohio. 
And I think Congress needs to come to grips with that. They're 
not--you can't deal with this with just giving them temporary 
relief and hoping that it's going to go away. It's not going to 
go away. There needs to be more fundamental reform, and you got 
to figure out what the Federal Government wants to contribute 
over time and the model because I'm not sure they could be 
self-sustaining over a long period of time.
    Ms. Foxx. Right.
    Mr. Dodaro. I know they're trying to, and I wish them well. 
But the dynamics are not in their favor long term.
    Ms. Foxx. Well, when we were in the midst of talking about 
these pension reforms, I asked staff to check with me. Only 22 
percent of the people in the private sector in this country are 
covered by pensions. It just seems very unfair to me to ask the 
taxpayers, who have no pensions themselves, to be paying for 
the pensions of other people who are working for the Government 
or in a quasi-government agency.
    Thank you, Madam Chairman. I appreciate it very much. I 
yield back.
    Chairwoman Maloney. I thank the gentlelady for her 
question, and I ask a point of personal clarification.
    On the Medicare integration portion, it is my understanding 
that the postal people paid into it. They paid into it, and 
they aren't claiming it. And Congress has said they can't claim 
it. Certain people can't claim it.
    What we were talking about is just allowing the postal 
workers to have the same benefit that every person has, that if 
you pay into Medicare, you are entitled to get your payment 
out. Right now, in our research, the Postal Service had paid 
$35 billion into the Medicare program that their workers were 
not pulling out because they had paid it. So, maybe a study on 
that that clarifies exactly how much have they paid in, and why 
are they not allowed to get Medicare like anyone else in the 
country who pays into it.
    I now call upon Mr. Connolly. You are now recognized for 
five minutes.
    Mr. Connolly. Thank you, Madam Chairwoman.
    And welcome, Mr. Dodaro. It is great to see you again. And 
I do think that this piece of work by GAO is maybe one of the 
most critical pieces of work Congress gets on a routine basis. 
It is an illuminating document. It is a guidepost to what we 
need to be doing in Congress, frankly, to make Government work 
better and certainly, I think, a flashing red light for many 
executive agency heads to understand that they have got 
problems they have got to deal with. And so thank you.
    I would just note, the gentlelady from North Carolina just 
talked about the unfairness of some pensions being helped by 
tax dollars. I don't think anyone is talking about the postal 
pension program or the healthcare benefits being bailed out by 
tax dollars. I mean, these are dollars paid into those programs 
by hard-working postal workers. And we came up in 2006 with 
this onerous prepayment requirement--again, with postal 
workers' money, not somebody else's money--that has 
unnecessarily burdened the Postal Service with a debt overhang 
that is unique to it. And since Congress created that problem, 
we need to fix it, and that is what we are trying to do with 
postal reform.
    Mr. Dodaro, could you talk a little bit about one of the 
high-risk items you identified a number of years ago that we 
picked up on and did act on in passing FITARA, which you 
endorsed and followed through on oversight with twice a year 
hearings--we are now about to schedule the 12th such hearing--
was IT modernization of the Federal Government, a lot of legacy 
systems, lack of investment, and so forth.
    Where are we on that as a high-risk item today?
    Mr. Dodaro. Well, the passage of FITARA by the Congress and 
the continued focus of the FITARA scorecards and the attention 
of, Congressman Connolly, you and other members of this 
committee have helped make progress. It saved billions of 
dollars in data center consolidations. It's also drawn a 
spotlight on the software inventory issue, which is now taken 
out of the scorecard process because so much progress has been 
made in that area.
    However, there is remaining work to be done. The many 
agency CIOs still don't have the full range of responsibilities 
that are needed to make them a key player at the table, 
oversight over the IT budgets, sway in some of the decisions 
that are made. That's still a problem area that needs attention 
in that area.
    There is still not fast enough pace on modernization of the 
legacy systems. The Technology Modernization Fund was thought 
to be had more funds in it that could help in that regard, and 
that hasn't--that hasn't been necessarily forthcoming in terms 
of that expectation.
    So, you really need to reform those legacy systems faster 
for security purposes, for service purposes, and a wide range 
of other areas.
    Mr. Connolly. So, if I can interrupt you--if I can 
interrupt you, Mr. Dodaro, on that point. And that is why the 
new President recommended $10 billion, $9 billion of which 
would go to the Technology Modernization Fund precisely to 
serve as sort of seed capital and the catalyst to retire those 
legacy systems, some of which are 40 and 50 years old and 
getting pretty creaky. Is that correct?
    Mr. Dodaro. That's my understanding. I'd ask Nick Marinos, 
our IT specialist to comment on that. Nick?
    Mr. Marinos. Yes that's correct, Congressman Connolly. So, 
ultimately, the benefit of having the Tech Modernization Fund 
gain some additional appropriations would be to give it wider 
reach. So, at the moment, there's only about a dozen projects 
that have been approved. But the benefit of TMF would 
ultimately be to give the Director of OMB the ability to more 
rapidly associate where there are areas that need the funding 
and then agencies to also go through a much faster approval 
process versus what would normally take probably a couple years 
for procurement within their agencies to actually work.
    Mr. Connolly. And Nick and Mr. Dodaro, just to show the 
direct correlation with COVID-19 relief funding, clearly IT 
plays an integral role in delivering the benefits we are voting 
for. Is that not correct?
    For example, we asked the SBA back in the spring to 
increase its lending 30-fold in one month. So, we went from a 
$20 billion a year loan portfolio for SBA for small businesses 
for a year, $20 billion, to $600 billion in one month. And its 
IT system, eTrans, could not handle the volume, the demand, and 
the program changes for eligibility and review that Congress 
mandated in the Federal law.
    We saw a similar pattern in the 60 different IT systems at 
IRS that got overwhelmed with family payments, child support 
payments, as well as doing its job with respect to tax returns. 
And of course, at the state level, it has been a nightmare, 
frankly, because of IT systems being old and legacy laden in 
terms of unemployment insurance benefits.
    But could you comment just a little bit about that, how the 
pandemic, how TMF is so necessary as part of the COVID-19 
response because we have seen the creakiness and the fractures 
in IT systems that are directly related to the missions for 
which we need them, we depend on?
    Mr. Dodaro. No, that's absolutely right. I mean, basically, 
there was serious strain on those systems to just conduct 
normal operations. And what we did was we layered on top of 
that, you know, trillions of dollars to be spent in a quick 
period of time, and therefore, it took already-stressed systems 
to the breaking point, to the brink.
    And so you need some help and relief in those areas. And 
the state unemployment systems are 40 years old in some cases.
    Mr. Connolly. Yes, yes.
    Mr. Dodaro. And this is the first time as a country we've 
had unemployment across so many sectors at the same time. Not 
even during the global financial crisis did we have as many 
sectors of the economy affected as we've had with the pandemic. 
And so that's a classic glaring example. SBA is another example 
where they've been unable to provide the services that are 
needed in a short period of time.
    The Technology Modernization Fund, as Nick alluded to, 
provides a faster vehicle for getting systems in place than 
going through the regular process. That was one of its virtues. 
And so those things can help, particularly in a pandemic.
    You know, we have the tendency to think . You know, if you 
just--we just throw money at something, it's going to solve it. 
But in order to do it efficiently and effectively, you need IT, 
and you need the people skills in order to do it properly with 
proper accountability and transparency and efficiency.
    Mr. Connolly. Well, I know you are going to the Senate 
today, and I hope you will take that message to our colleagues 
in the Senate, who thought that the TMF, the Technology 
Management Fund, was unrelated to COVID and at one point zeroed 
it out, to the horror of the chairwoman and myself and my 
ranking member Mr. Hice and I think Mr. Comer as well.
    So, thank you for that testimony, and thank you, Madam 
Chairwoman, for the indulgence.
    Chairwoman Maloney. Thank you. The gentleman yields back. 
The gentleman from Texas, Mr. Cloud, is recognized. Mr. Cloud?
    Mr. Cloud. Thank you, Madam Chairwoman.
    Thank you, Mr. Dodaro, for being here.
    As has been said a number of times, I can't think of a more 
important committee hearing for us to have. I look forward to 
this each time, and appreciate you coming here and presenting 
the findings of your report and thank the chairwoman's latitude 
in giving us room to really address this.
    You know, I would say the one thing I wish is that we have 
more of these, and that believe your report came out Friday, or 
at least that is when our offices--they were distributed to our 
offices, and so it would be wonderful to have even more time to 
dig into these issues and get down to the details of it. 
Because as you mentioned a number of times, congressional 
action is so important, and we want to make sure we get that 
right and get the details right. And so I appreciate you being 
here.
    You know, Last time when you met here, I think we were $22 
trillion in debt. We are just about--I checked out the U.S. 
debt clock this morning--about to hit $28 trillion, and that is 
before the $1.9 trillion bill that is working its way through 
Congress right now.
    And it has also been mentioned when you talk back home 
about to even begin to make the list, you have to be potential 
wasting $1 billion. It has been said years ago I think that you 
spend millions and millions, soon it adds up to real money. We 
are to the point where it is you spend billions and billions, 
sooner or later it adds up to real money. But that is where we 
are.
    I would note, is debt or interest considered in your 
report?
    Mr. Dodaro. Yes, I have a special report that I issue every 
year on the fiscal health of the Federal Government. That will 
be coming out in the next month or so. And you know, I 
basically said in that report that our Government is on a long-
term unsustainable fiscal path.
    I've called for reforms to how we set the debt ceiling, 
which really doesn't control the debt, and it causes problems 
when it's not raised in time. Because all the debt ceiling does 
is authorize Treasury to borrow the money to pay for the bills 
Congress has already appropriated and the President signed into 
law. And there can be disruptions in the Treasury market and 
increasing cost.
    But we need to do everything as a country now to deal with 
the COVID-19 healthcare crisis and to deal with our economy and 
get it back in a robust manner. But as soon as that happens, 
we've got to quickly turn our attention to having a plan, which 
I've called for now for four straight years, to deal with our 
long-term problems.
    There are problems. Our Highway Trust Fund is insolvent 
this year. Congress has been supporting it with other funds. 
It's not self-sustaining, the way it was initially intended. 
There's a gap there of about $195 billion over the next few 
years.
    I mentioned Medicare. By 2024, only have 83 cents to pay on 
the dollar for the hospital trust fund. And Social Security by 
2031 will only have enough money to pay 75 cents on the dollar.
    Mr. Cloud. It seems to me, you know, this being a report on 
waste, fraud, and abuse, and the potential thereof, that every 
dollar we spend on interest is wasted. It doesn't go into any 
sort of programs, and of course, interest is about to outpace 
military spending even, and that is totally crowding out any 
sort of discretionary funds that we have.
    Do you know how many Federal programs exist? This is a--
this is a number I have been trying to get for a long--do we 
have a hard number?
    Mr. Dodaro. No. There is not a hard number, and I've been--
--
    Mr. Cloud. Are agencies----
    Mr. Dodaro [Continuing]. Recommending this for years. 
Actually, Congress passed a law that required OMB to develop an 
inventory of programs.
    Mr. Cloud. Right.
    Mr. Dodaro. That law is now about 10 years old, and we 
still don't have an inventory of Federal programs. Now there's 
a Taxpayers Right-To-Know Act that passed recently----
    Mr. Cloud. Right.
    Mr. Dodaro [Continuing]. That would require them to do 
this. We've given them some advice on how it could be done. 
They've tried it before, but it hasn't worked. They let each 
agency come up with their own list. And so we need a program 
inventory.
    Mr. Cloud. And our office has presented legislation that 
would implement a Federal sunset commission, for example, that 
would review these. But the first step is counting and figuring 
out how many programs and agencies we have for review.
    Mr. Dodaro. Right.
    Mr. Cloud. And it seems like that it is a difficult----
    Mr. Dodaro. We've done that in some areas, but it takes a 
lot of work. And as soon as you have it, it's outdated.
    Mr. Cloud. Yes. I want us to talk a little bit more on 
something that Mr. Hice talked about earlier, and that is just 
the general how do we incentivize performance? For example, in 
business, you have built-in incentive for efficiency and 
performance and getting those metrics and advancing those 
metrics. In a bureaucracy, it seems like everything is against 
that.
    You know, everything--there is no incentive and, actually, 
a disincentive for, if you know if you do something efficiently 
your budget gets cut, and if you do something poorly, then we 
come back to Congress and say we need more money to do it. And 
then just there has been sometimes, unfortunately, a sense in a 
bureaucracy that the administration, whichever administration 
it is, is temporary, the bureaucracy is permanent. We will just 
kind of wait this out, live this out.
    How do we shift that? What are some recommendations you 
would have for us in being able to deal with nonperformance and 
be able to return, whatever your view, right or left, on the 
issue of just being able to return value to the taxpayer?
    Mr. Dodaro. Yes, right now, the incentives are reversed. 
When a program is created in the Federal Government, you have 
to take extraordinary measures to stop that program from 
continued funding. There's an assumption that it should be 
continued funding.
    And so if GAO comes up with an idea or the IGs or somebody 
else, the onus is on us to say you shouldn't fund it at that 
level. The onus ought to be on the agencies to say that the 
program is effective, we've evaluated it, it's meeting its 
objective, and here's when we're done.
    Most of these programs, not only do we not know the number, 
we don't know whether they're effective or not because they've 
never done program evaluation. Now Congress passed legislation 
recently to go to evidence-based decisionmaking about programs. 
And so it's very important that these program evaluations be 
done to see if they're operating effectively.
    So, Congress needs to change the--flip the script and 
require a clear record of positive performance to continue 
funding at the same level and not assuming that it will 
continue.
    Mr. Cloud. Sounds like a good case for a sunset commission 
to me, among other--I have a whole slew of other questions on 
specifics of the different programs, but thank you for the 
indulgence on the time. And hopefully, we will be able to have 
more hearings on the specifics of this list going forward to 
address these.
    Thank you so much, Madam Chair.
    Mr. Dodaro. Thank you.
    Chairwoman Maloney. Well, all questions can be put into the 
record to get answered later, too.
    Mr. Cloud. Right. Well, I will do that, but the discussion 
now.
    Chairwoman Maloney. The gentleman from Maryland, Mr. 
Raskin, is recognized for five minutes. Mr. Raskin?
    Mr. Raskin. Thank you, Madam Chair, and thank you for this 
excellent hearing.
    I want to talk about climate change, which is not only a 
civilizational emergency, but it is also a fiscal catastrophe. 
America has incurred $1.24 trillion in economic damages since 
2005 through various climate disasters and calamities. We have 
seen millions of acres of forest in California lost to 
wildfire, record drought across the country, record flooding 
across the country, especially in coastal cities, a dramatic 
rise in sea level, millions of climate refugees from around the 
world, record velocity hurricanes, and so on.
    You call, Mr. Mihm, for a National Climate Strategic Plan. 
You call for prioritizing national climate resiliency projects, 
and you also call for a new pilot program for community climate 
migration. I wonder if you would explain to us what that means?
    Mr. Dodaro. Yes, I'm going to ask Mr. Gaffigan, who's our 
expert in that area, to respond to that question, Congressman.
    Mr. Raskin. Sure.
    Mr. Dodaro. Mark?
    Mr. Gaffigan. Thank you, Congressman. Thank you, 
Congressman Raskin, for the question.
    Yes. When we talk about the migration program, there are 
communities throughout the country that are particularly 
vulnerable to climate change. Communities in Alaska, we did a 
recent report, looked at communities in Alaska. Maryland, the 
Eastern Shore and your home state, as well as other parts of 
the country. And there is a need to prioritize the help that we 
can provide these communities and not leave them alone as they 
address these challenges.
    Mr. Raskin. In 2015, the GAO recommended that the Federal 
Government come up with a plan to provide information to state, 
local, county decisionmakers, as well as private sector 
decisionmakers, to educate people about the dangers of climate 
change and also to promote climate resiliency. I am wondering 
whether that happened, why we need it, and also whether you 
think that such cooperation and information sharing between the 
Federal level and state and county and local level would better 
prepare us for things like the Texas power grid disaster that 
we saw last month because of extreme weather in Texas that 
disrupted the lives of millions of people?
    Mr. Dodaro. Yes, let me just say, Mark, and I'll turn it 
over to you. Congress passed an important bill that began to 
move in this direction back in the 2018 Disaster Reform 
Recovery Act that required the agency, FEMA, to create a grant 
program with funding for disasters to allow resilience, to be 
building in resilience up front.
    For years, the Federal Government standard when there was a 
disaster is build back the same as it was before, not better. 
And this would help agencies--or state and local levels and 
others to build more resilience in up front. It's been proven 
that, you know, a dollar spent up there can save $9, $10 later 
on by building resilience in up front.
    Mr. Raskin. OK. And so that is really my question now, when 
you are calling for prioritizing national government resiliency 
projects, coordination between the Federal level and the state 
and local level for community climate migration and so on, I 
mean, would all of that help us to prepare for things like the 
catastrophe that just took place in Texas where----
    Mr. Dodaro. Yes, yes.
    Mr. Raskin [Continuing]. People's lives were disrupted?
    Mr. Dodaro. Yes, absolutely. Absolutely. Mark, you want to 
explain a little bit better?
    Mr. Gaffigan. Sure. I mean the, the information, you asked 
about information, Congressman Raskin, and that has been some 
worked on since 2015, but we have been kind of disappointed 
that there hasn't been this national strategy that could pull 
together that kind of information. We have done some work on 
building resilience that sort of points to three areas the 
Federal Government can help.
    One is providing incentives. The other is information, but 
also integration. Because not only does this need to be a whole 
of government approach and all levels of government, including 
tribes, but it also needs to be a whole society situation where 
we address this, bringing in----
    Mr. Raskin. Yes, let me pursue that for one second, Mr. 
Gaffigan, because I think that the COVID-19 crisis, I hope if 
it has taught us nothing else, it is that an invisible and 
silent threat can shut down the country and can traumatize and 
kill lots of our people. Climate change is in the same 
category, isn't it? And don't we need to mobilize the whole 
society to confront this danger?
    Mr. Dodaro. Absolutely, yes. Yes.
    Mr. Raskin. And my time is up. So, I will yield back.
    Mr. Dodaro. I would just say, Congressman, in closing that 
we put that on our list in 2013. We think it's important to 
deal with this to limit the fiscal exposure of the Federal 
Government, and the Government--Federal Government can provide 
leadership, but just like on the drug misuse area, you need to 
have national leadership, but you've got to have all segments 
of the society involved to help.
    You know, building codes and structures are set at the 
local level. So, if you don't have them involved, the Federal 
Government is going to be limited in what it's going to be able 
to do.
    Mr. Raskin. Thank you very much. I yield back, Madam Chair.
    Chairwoman Maloney. The gentleman yields back. The 
gentleman from Louisiana, Mr. Higgins, is now recognized. Mr. 
Higgins?
    Mr. Higgins. Thank you, Madam Chairwoman. I thank you, 
ma'am and Ranking Member Comer, for holding today's hearing 
regarding the GAO High-Risk List for 2021. Ensuring oversight 
of Federal programs and American treasure should be a priority 
mission of this committee. Transparency and supervision of 
these programs, while time-consuming, is crucial.
    Over the last 15 years, oversight of the High-Risk List has 
saved over $575 billion. While large programs are created with 
trillion dollar budgets, this has increased exposure, shall we 
say, to bad actors, Government malfeasance, and unforeseen 
consequences. This is almost predictable when we are dealing 
with this much money. So, so this is an incredibly important 
function, and our oversight should be 100 percent bipartisan. 
And I am sensing that now.
    And I would like to thank my friend Representative Raskin 
for bringing up climate change, and I invite him to Louisiana, 
where we have a very old saying that if you don't like the 
weather in Louisiana, stick around because it will change. 
Perhaps my constitutionalist friend can visit, and we will have 
an interesting townhall in my district regarding----
    Mr. Raskin. I am going to take you up on that, Mr. Higgins. 
I would love to join you. Love to.
    Mr. Higgins. Yes, sir. Always the gentleman you are, good 
sir.
    Madam Chairwoman, critical programs such as the Census, 
Postal Service, cybersecurity, the SBA programs, PPP and EIDL, 
they should remain the focus for the GAO and Members of 
Congress and this committee. But I would like to focus my time 
and give our Comptroller General an opportunity to respond to 
some questions I have regarding specifically cybersecurity as 
it relates to Government contracts and national security.
    So, Comptroller General, thank you for being here, and I 
would like you to give us your insight regarding what GAO is 
doing, at what level does vetting take place and your own 
inspections dive deep into cybersecurity-contracted entities 
that deal with protecting us against intellectual property 
theft, malware, and cyber espionage?
    And I give you a lengthy time to respond here, sir, because 
it is very important. I would like to know. The committee would 
like to know. America's interest is certainly much more heavily 
focused now on cybersecurity, as we should be. So, give us the 
GAO perspective there, please, sir. Intellectual property 
theft, malware, and cyber espionage.
    Mr. Dodaro. Yes. Well, we raised this issue recently on 
intellectual property, most recently with the pandemic in terms 
of protecting information regarding vaccines development and 
distribution. We had pointed out a lot of problems at HHS, at 
CDC, the National Institutes of Health and others, and urged 
them to correct the problems that they have in place to protect 
the intellectual property around that area.
    The Government has a responsibility for all its contractors 
to make sure that they have proper safeguards in place in order 
to make sure that the business they're doing with the 
Government and access to the Government systems are protected. 
DOD has just started a computer or cyber maturity model 
accreditation to make sure the contractor systems are up to 
speed. That's in its incipient stages. It needs to be developed 
further.
    I'd ask our expert in the cyber area, Nick Marinos, to add, 
Congressman, because you're asking a very good question, and 
it's very important. Nick?
    Mr. Marinos. Yes, Congressman Higgins, I think you raise a 
really important point. The reliance that the Federal 
Government has on contractors to process Government information 
is the only way that we get business done in many ways. And so 
it requires Federal agencies to realize that that is their 
responsibility, that they have to have the capabilities in-
house to be able to confirm that those contractors and also 
vendors--so it could be the software that is being utilized--
that they have ways to verify the cybersecurity of those 
products and services.
    And unfortunately, as this committee last Friday showed 
through its hearing on SolarWinds, you know, our--we are behind 
the eight ball on this, and we continue to be, which is why 
cybersecurity has remained on the High-Risk List for over 20 
years now. The benefits to having some kind of a certification 
process are quite significant because it would allow agencies 
to have a level playing field, kind of understand, you know, 
which contractors have sort of been vetted to sort of clear 
those security requirements.
    But on the other side, this is also a workforce issue. 
Government agencies not only need to have cyber expertise 
within their security operations center and within their 
technical capabilities, but also within their procurement 
offices. We need to have oversight of those contractors come 
from individuals that are both savvy in understanding how to 
administer contracts and also how to ensure that the 
contractors are adhering to things like security requirements 
as well.
    Mr. Dodaro. But we're going to be taking, Congressman, a 
closer look at this area because the concern I have is that the 
agencies haven't been able to fix the systems properly that 
they have responsibility for, let alone oversee the 
contractors. So, I think you got a potential double 
vulnerability here that needs to be more deeply investigated.
    Mr. Higgins. Thank you, sir. I very much appreciate your 
very thorough response.
    And Madam Chair, I look forward to further discussions on 
this issue, and I yield. Thank you, Madam.
    Chairwoman Maloney. The gentleman yields back. The 
gentlelady from California, Ms. Speier, is recognized.
    Ms. Speier. Thank you, Madam Chair.
    I concur with all of my colleagues that this is one of the 
most important hearings we have every two years.
    Mr. Dodaro, once again, you are a jewel to the Federal 
service, and I thank you for the almost a generation that you 
have been at GAO.
    I would like to start off by suggesting something. I want 
to associate myself in particular with members on both sides of 
the aisle, but also specifically the gentleman, my good friend 
from the state of Tennessee, Mr. Cooper. I think that there are 
ways of highlighting your work that would be very effective, 
and I would like to make one recommendation, Madam Chair.
    There is always low-hanging fruit, and it may not be over 
$1 billion. What if we were to create--and Mr. Dodaro, this is 
where you would come in--a bushel of low-hanging fruit. And I 
just looked it up, and a bushel is 32 quarts. So, if we 
identified 32 programs or fixes that we should make, that could 
be real money, and I would like to recommend that, Madam Chair, 
as something that we could do.
    As we talk about the SBA, in your report you made reference 
to the fact that there is not a review of loans that are under 
$2 million. Do you think that number should be lowered and we 
should demand that Treasury look at smaller loans?
    Mr. Dodaro. Yes, I think there should be. Not each 
individual loan. What Treasury said is that they want to look 
at every loan over $2 million. Our view was that SBA needed to 
have some plan on a sampling basis or some risk analysis to go 
in and look at the other loans as well, not each and every one 
of them.
    And they do have a plan to look at loans under $150,000, 
which is many of the loans are at that level, before they give 
forgiveness for the loan. And so, but we've just gotten their 
plan. We haven't looked at it yet. But it's based upon a risk 
analysis and then a sampling of the loans, from what I 
understand.
    Dan Garcia-Diaz here is our expert in that area. Dan, do 
you have a comment on that, please? I think you're on mute, 
Dan. Your mic is not working? OK, I'll speak on behalf of Mr. 
Garcia-Diaz. And so, you know, we're going to be----
    Ms. Speier. I think his microphone is working now.
    Mr. Garcia-Diaz. My mic is working now, yes.
    Mr. Dodaro. OK, go ahead.
    Mr. Garcia-Diaz. Yes. So, there is now plans for both 
automated reviews and manual reviews of the different--at 
different loan levels, and so we are assessing those plans 
right now. But as the Comptroller General pointed out, we don't 
expect a full review of all the loans, but rather to devise a 
process for selecting loans and particularly flagging loans 
that may have some questionable characteristics that might 
further warrant review by SBA.
    Mr. Dodaro. Yes, I think it's important as far as----
    Ms. Speier. Could I ask a followup question? Has the SBA 
detailed a clear plan on how to recover funds deemed were 
fraudulently obtained?
    Mr. Dodaro. Not that we've seen yet. And, I don't believe 
so. But my concern here is that this program has been very 
poorly managed, and we just recently got their oversight that 
we called for last June. Now I can understand in March, you 
know, getting the money out quickly, but you needed to have an 
oversight plan in place soon thereafter.
    And one of--there's been a lot of fraud in this area, both 
the PPP program and the Economic Injury Disaster Loan program. 
And one of the reasons I think it's important to look at loans 
that are all sizes is that a lot of people committing fraud 
purposely stay at a low level and try to, you know, just hit 
several different times to stay under the radar screen. And you 
have instances of people creating fake businesses that don't 
even exist that are getting the money.
    And so there have been over 140 different indictments so 
far. About 40-some people have already pleaded guilty. There 
are hundreds of investigations still ongoing. So, there needs 
to be some money.
    Now they did recover, from what I understand, about $450 
million in the Economic Injury Disaster Loan program. So, the 
IGs and the Justice Department are working together in this 
area as well. So, we're going to be looking at it more 
carefully once we get their plans and can evaluate.
    Ms. Speier. Well, as they are starting to ask for 
forgiveness, it is really important that we identify the fraud. 
So, I hope that is part of your effort. And my understanding is 
only about a third of the companies that were in the Fortune 
500 list or had the ability to receive capital elsewhere 
actually returned the money. So, two-thirds of them did not.
    It would be helpful to me in particular, and probably to 
other members of the committee, if we identified those two-
thirds of the companies that did not and create some kind of 
shaming around it. I know my time has expired, but I think this 
is so ripe for our continuing review this year, Madam Chair, 
that we do that.
    I just want to ask two final questions. You pointed out 
that--do you agree that gutting the Naval Audit Service and 
having less oversight of these critical programs would be 
moving in the wrong direction? It is my understanding that they 
have actually reduced the number of persons serving in that 
capacity.
    Mr. Dodaro. I'm not familiar with that situation, but I'd 
be happy to take a look at it. I have been concerned about some 
of the Inspector General functions across Government having 
their independence undermined in a number of cases, and I'll be 
happy to look into that situation and give you my assessment of 
it.
    Ms. Speier. Comptroller General, I would agree with you. In 
fact, I think many of the Inspector Generals associated with 
the military services do not have the skills at all to provide 
that function. We saw that most recently at Fort Hood, where 
the force IG went down and said everything was great. And then 
an independent committee was sent down, and it did a serious 
review and found that there was gross dereliction of duty.
    So, I would encourage you to help us define how we should 
maybe change Inspector Generals into civilians within each of 
the services because I don't think they are necessarily serving 
the American people and may be just protecting the various 
services.
    And finally, let me just ask you, if you haven't, to look 
at the contracts for housing at bases around the country and, 
in fact, around the world. I think these contracts go on for 
decades. There is not accountability.
    At recent visits to military bases, I have found serious 
problems with lead, asbestos, mold in many of these housing 
settings where our servicemembers and their families are 
living, and it is the equivalent of tenement living, and I 
think it is shameful. So, I hope that you will take some time 
to look at that.
    Madam Chair, thank you for the accommodation. I yield back.
    Chairwoman Maloney. The gentlelady yields back. The 
gentleman from Pennsylvania, Mr. Keller, you are now 
recognized.
    Mr. Keller. Thank you, Madam Chair.
    This is an important hearing for us to understand which 
programs and agencies need reform to improve their 
effectiveness and reduce waste, fraud, and abuse in the best 
interest of the American taxpayer. Pennsylvania's 12th 
congressional District is home to two Federal prisons, USP 
Lewisburg and FCC Allenwood, both of which have been negatively 
impacted by the Bureau of Prisons inmate transfer policies and 
lack of transparency with the American people.
    We saw this firsthand with the BOP when they refused to 
halt transfers and movement of the roughly 150,000 inmates it 
is charged with securing during the early stages of COVID-19, 
putting corrections officers and inmates at risk of infection 
and causing further community spread. We owe it to our 
outstanding corrections officers, the inmates they secure, and 
the surrounding communities to work with the BOP to improve its 
operations.
    Mr. Dodaro, in the last five years, the GAO has made 19 
recommendations related to the BOP, of which 16 have yet to be 
addressed. The recommendations are largely centered on 
rectifying the BOP's failure to manage its staff appropriately 
and improve mental health, their failure to plan for new inmate 
wellness programs that reduce recidivism, and failure to 
monitor and evaluate programs which have led to wasting 
taxpayer dollars. Can you say more about your ongoing and 
planned work related to the prison system?
    Mr. Dodaro. Yes. As you point out rightly, we've been 
concerned about this. We've made a number of recommendations. 
My team just recently met with the head of the Bureau of 
Prisons service, and he announced he's going to create a task 
force within BOP to look at the high-risk issues that we're 
identifying and to begin to address the root causes of the 
problem. So, I was very pleased with his initial response to 
our designation that we are considering putting it on the High-
Risk List.
    Our work now is focused on the FIRST STEP Act, where 
Congress required a number of reforms to be put in place, and 
we want to see if those reforms are being implemented properly, 
and that will be the critical determinant as to whether we 
officially add them to the High-Risk List or not.
    Mr. Keller. So, you don't know whether or not they will be 
added to the list in the upcoming two years? But I guess it 
would be dependent on their performance?
    Mr. Dodaro. Yes, yes.
    Mr. Keller. OK.
    Mr. Dodaro. And we designate, Congressman, people onto the 
list out of the two-year cycle. So, if we finish our work and 
we think that they should be added, we'll add them out of 
cycle.
    Mr. Keller. Just for the benefit of the people that might 
be watching today's hearing, can you explain a little bit about 
what the High-Risk List is and how an agency or a program gets 
added to it?
    Mr. Dodaro. Sure. The High-Risk List was created in 1990 as 
a result of some fraud, waste, and abuse issues that had 
surfaced at the HUD, the Housing and Urban Development 
Department. There were some procurement scandals at DOD at that 
time. And Congress came to the GAO, and they said, well, can't 
you identify what these risks are before they get to be crisis 
proportion?
    And so we developed a list to identify areas in need of 
fraud, waste, abuse, and mismanagement, and we started with 14 
areas. Over time, we've also added areas of--areas that are in 
need of broad-based transformation. In other words, there's 
been circumstances that have changed that they need to make a 
transformation and to develop.
    For a good example is on oversight of medical products 
where most of our drugs now or ingredients in the drugs are 
made by foreign manufacturers, and FDA was set up for domestic 
production. So, that's an area of needed transformation, and so 
that helped the Congress spur that area.
    We consider a number of factors, whether it has 
implications for public health, safety, the economy, national 
security, and whether there's a lot of taxpayer dollars at 
risk. Those are the factors to get on the list.
    Then to get off, you have to show leadership commitment. 
You have to have the capacity, an action plan, monitor your 
efforts, and actually demonstrate some success in lowering the 
risk or fixing the problem to get off.
    Mr. Keller. OK. Thank you. I appreciate that. We owe it to 
our outstanding corrections officers, the inmates they secure, 
and the surrounding communities to work on the BOP to improve 
their operations.
    And based upon what you laid out there as far as the risk 
to taxpayers and all the items, in view of what has happened 
since this Congress began, the $1.9 trillion, only 9 percent of 
which is going to actually public health safety. The other 91 
percent is going to Speaker Pelosi's payoffs, one of them being 
a subway in Silicon Valley for $140 million and also $12 
billion going to foreign governments rather than helping the 
American people.
    In addition to that, we are talking about H.R. 1, which is 
going to take taxpayer dollars and use them to fund elections 
so that more people, more American people will be watching more 
election commercials and so forth at election time. Do you have 
any plans on putting Congress on that list to see what reforms 
could be done?
    Mr. Dodaro. There are limits to our authority.
    Mr. Keller. That is unfortunate.
    Mr. DeSaulnier.[Presiding.] The gentleman's time has 
expired. I will now recognize the gentlelady from Illinois for 
five minutes. Ms. Kelly?
    Ms. Kelly. Thank the Chair.
    Mr. Dodaro, I would like to thank you for all the work your 
agency is doing to evaluate our response to the coronavirus 
pandemic. This vital work is helping policymakers at all levels 
of government understand the challenges we face and inform our 
efforts to address them.
    In that vein, I would like to ask you about a topic that 
many of my Democratic colleagues and I have noted must play a 
critical role in informing our pandemic response data. I am not 
talking about the scientific data that support the 
implementation of public health measures, like mask wearing and 
social distancing, but also the data that helps us to 
understand the people and places hardest hit by COVID-19.
    Your report today references an earlier GAO report from 
January 2021, which notes that data collection by state and 
local entities, as well as HHS, is ``critical to inform a 
robust national response.'' Can you briefly explain why good 
data is so vital to Federal, state, and local decisionmaking?
    Mr. Dodaro. Well, first, this pandemic has laid bare some 
of the frailties of our highly decentralized public health 
system and the need for better data in order to respond to the 
public health outbreaks.
    First, you need to find out, you know, there wasn't clear 
and complete data on testing. So, you need to know how many 
people were being tested and where. Where there were outbreaks. 
So, how to target assistance to those outbreaks. The 
disproportionate effect that it was having on people of color 
and what exactly was happening in those areas.
    I'll ask Ms. Clowers to elaborate a little bit further, but 
this is an area where we've quickly noted--and this is a real 
concern going forward. We need to invest in more public health 
surveillance, operations, in order to be efficient and 
effective about our responses. Nikki?
    Ms. Clowers. Yes, sir. Congresswoman, as the Comptroller 
was saying, the system is fragmented, and so the data is 
collected by different actors at the Federal level, as well as 
state and local. And because of that, they are often using 
different definitions of the data.
    So, even when there are efforts to collect data from 
different sources, you roll it up, it is incomplete, it is 
inconsistent because we haven't used the same standards. And so 
we have made recommendations to the Government to address this. 
Because to your point, it is critical that we have better data 
so we can spot problems and take the corrective action needed. 
Without the data, we can't make those mid-course corrections.
    And to the point the Comptroller General made as well, 
COVID has laid bare the disparities in health outcomes that we 
are seeing. And again, we need better data on that. For 
example, right now, in terms of vaccine, vaccines rates, about 
50 percent of all of that data is missing race and ethnicity 
information. We need better data on that so we can better 
target populations to make sure that they are having the right 
access to care and to the vaccines.
    Ms. Kelly. Your report also notes the need for HHS to have 
strong, clear coordination with states, territorial, and tribal 
governments and the public as we work to distribute and 
administer the vaccines. You reference the agencies' 
responsibility for managing a national evidence-based campaign 
to increase awareness of the safety and efficacy of the 
vaccines, particularly in communities with low vaccination 
rates. Why is this initiative so important, and what can HHS do 
to make sure it is as successful as possible?
    Mr. Dodaro. Nikki, please?
    Ms. Clowers. Yes. A critical piece is involving the state 
and local officials. They play a key role in any type of the 
public health measures that we are taking, but also, 
importantly, the vaccination efforts. And that is why we 
recommended in September 2020 that the Federal Government 
needed to develop a distribution strategy which included 
outlining the communication with and obtaining input from state 
and local governments and ensuring that populations are 
reached.
    You know, it is the local governments that understand their 
communities, their citizens, and can help ensure that we reach 
those populations in getting the vaccine out, getting the word 
out about the vaccine and the benefits of having--of taking the 
vaccine.
    Ms. Kelly. It does seem like a more comprehensive data 
collection would aid our efforts to understand systemic racial 
disparities in the United States and actually advance reforms 
to achieve health equity.
    With that, thank you so much to the witnesses and your 
patience, and I yield back.
    Mr. DeSaulnier. I now recognize the gentleman from Arizona, 
Congressman Biggs.
    Mr. Biggs. Thank you very much, Mr. Chairman.
    This is at least the third hearing I have participated in 
since coming to Congress related to the GAO's High-Risk List, 
and each year, I see many of the same agencies and programs in 
the report. For example, I served on the House Science, Space, 
and Technology Committee my first two terms. So, I am very 
familiar with the Environmental Protection Agency's Integrated 
Risk Information System, or IRIS, which receives very brief 
mention on pages 31 and 32 of the report.
    The IRIS program was meant to be a clearinghouse of sorts 
within EPA for consolidating data and reporting on chemical 
toxicity. The problem, though, is that many of the program 
offices within EPA, for example, the Office of Chemical Safety 
and Pollution Prevention and the Office of Water, have already 
been doing their own research and integrating their findings 
with other departments. So, in other words, IRIS is an 
unnecessarily duplicative super-structure.
    When I chaired the SST Environment Subcommittee, I 
advocated for eliminating IRIS and returning more work to the 
EPA program offices. For those who are curious, I have also 
introduced a bill to achieve this result, H.R. 62, the 
Improving Science in Chemical Assessments Act.
    Going back to the IRIS references in the GAO's High-Risk 
List, the report accurately identifies a major problem with 
IRIS stating that the program did not issue a completed 
chemical assessment between August 2018 and December 2020. The 
report then goes on to suggest that the failure of IRIS was 
rooted in larger faults with EPA because the agency did not 
indicate, and I am quoting here, ``did not indicate how it was 
monitoring its assessment nomination process to ensure it was 
generating quality information about chemical assessment 
needs.''
    Further, the report suggests EPA ``lacked implementation 
steps and resource information in its strategic plan and 
metrics to determine progress in the IRIS program.''
    Maybe if EPA were better at monitoring its assessment 
protocols, we would have a better IRIS. That is possible, I 
suppose. But again, I posed a much simpler and more cost-
effective solution of eliminating IRIS altogether, and that 
speaks to a larger issue I have with the GAO High-Risk List.
    It doesn't seem to offer many recommendations to fully 
eliminate some problematic programs, even though that course 
may, indeed, be the best option in some cases. Or maybe, quite 
frankly, in many cases.
    Mr. Dodaro, is there a reluctance on your agency's part to 
make recommendations for the full elimination of consistently 
problematic programs, such as the IRIS program?
    Mr. Dodaro. Not if we have the evidence necessary to 
support that. We've not looked at the IRIS program in the 
context of what you're mentioning, and let me ask Mr. Gaffigan 
if he has a view on that matter.
    Mr. Gaffigan. Yes, thank you for your question, Congressman 
Biggs.
    You know, there are many ways the assessments can be done. 
The current process, as it is set up, allows for a nomination 
process, it did at one point, and for these assessments to be 
done. Our main point is the assessments aren't being done. And 
whether it is done in the program offices or at IRIS, there is 
a need to commit the resources to it.
    And so, you know, that is an option going forward. The 
bottom line now is the assessments are not getting done. 
Whether it is done by an IRIS program or another alternative, 
as you suggest, those are all viable ways to do it. It is just 
not getting done right now.
    Mr. Biggs. Thank you. I appreciate the answer to the 
question. And rather than droning on further about the IRIS 
program and its need, I would suggest that as we look forward, 
we might--I would appreciate recommendations such as in the 
IRIS program, which has been so problematic and so duplicative, 
maybe--maybe viewing it from your perspective of whether that 
program should actually be eliminated or go forward.
    And so I would ask for that request. And then I would just 
say that the IRIS program has been bugging me, actually, as you 
can tell, for about four years now because it is duplicative. I 
think it needs to go away. I think we can accomplish this more 
efficiently. And if resources need to be redrawn there, we can 
do that.
    And I appreciate your comments, Mr. Dodaro and also Mr. 
Gaffigan. And with that, Mr. Chairman, I will yield back.
    Mr. DeSaulnier. Thank you, Congressman. I now recognize the 
gentlelady from Michigan, Ms. Tlaib, for five minutes.
    Ms. Tlaib. Thank you so much.
    I think it is important to say to my colleagues across the 
aisle, you know, the problem isn't IRIS. The problem is 
Republican refusal to believe in science and take climate 
change seriously. It is no coincidence that the EPA failed to 
do its job under the Trump administration.
    As you all know, I represent a zip code that is the most 
polluted zip code in the state of Michigan. So, climate change 
is here, and its impacts are becoming more and more devastating 
with each passing year.
    So, we must stop weighing whether or not we will act on 
climate change by how much money it will cost our Government 
and big corporations and start measuring the substantial 
expense of this country's inaction on climate change on 
communities across the country, especially our black, brown, 
and low-income communities.
    And we must also focus on detrimental health impacts 
resulting from our reliance on fossil fuels. The child with 
asthma who is forced to miss school because their house is 
surrounded by corporate polluters, and this is a real fact that 
happens in my community. A third of a class will raise their 
hand and say they have asthma.
    The family who has uprooted everything because of constant 
flooding. That is happening in my community in the Dearborn 
Heights neighborhood. Or the neighborhood block that has been 
completely devastated by respiratory diseases and cancer 
because of dirty air.
    So, Mr. Dodaro, the Environmental Protection Agency's 
Integrated Risk Information, the IRIS system is supposed to 
assess the health hazard of chemicals in the environment to 
inform all of us so that we can make much more informed 
decisions on our environment policies and regulations to keep 
our communities safe. However, the GAO report states that, and 
I quote, ``EPA's agency-wide strategic plan for fiscal years 
2018 through 2022 does not mention the IRIS program at all.''
    So, I am wondering, and furthermore, I know the report also 
notes the astonishing fact that the IRIS program had not 
completed a single, not one, chemical risk assessment between 
August 2018 and December 2020. So, Mr. Dodaro, is it fair to 
say that these assessments can literally be life or death for 
communities like mine because they identify chemicals and 
pollutants that pose potential fatal adverse health effects?
    Mr. Dodaro. Yes. Basically, the Government can't take 
informed action without a thorough assessment, now whether it 
comes from IRIS or somewhere else. But I would note, we rated 
the EPA area as an area that regressed because they were 
proposing, the administration had been proposing to cut the 
IRIS budget, but Congress kept reinstating----
    Ms. Tlaib. By 34 percent. Isn't that correct?
    Mr. Dodaro. That's correct. But Congress reinstated the 
funding, and so that's the reason we didn't rate them down in 
leadership. What we rated down is monitoring and an execution 
area.
    Mark, do you have any other thoughts you want to mention?
    Mr. Gaffigan. No, I think that is true. And again, we would 
just like to see the assessments done because they are 
important to everyone's health. And you know, how we do that, 
that can be discussed, and there are good options.
    The other thing I would mention, Congresswoman Tlaib, is 
the issue of environmental justice. We did a report in 2019 
that pointed out the interagency working group. There are 16 
agencies working on environmental justice issues, and many of 
them had done some individual plans, but we found that the 
plans were not updated. There was a lack of performance 
measures around the issue of environmental justice affecting 
particularly communities of color, and that is a huge need 
going forward.
    Ms. Tlaib. Yes. I really would urge my colleagues, and this 
is sincere, come visit my district. I have given a number of 
tours, what I call the ``toxic tour.'' Come breathe the air. 
You can smell it in the neighborhoods I represent. Meet your 
fellow Americans that don't have access to running water in the 
richest country on Earth.
    Come and tell us to the face of, again, your fellow 
Americans and that they are trying to raise their children that 
it is too costly to protect the climate, that it is too costly 
to address climate or environmental toxins and to really combat 
corporate greed that is so interconnected to a lot of these 
decisions that were made by the Trump administration, including 
missing deadlines and so forth.
    Because that is exactly what our Government says again and 
again and again to residents like mine through these failures 
is that it is OK that they aren't breathing clean air. It is OK 
that their lives are shortened because we are doing nothing on 
these issues.
    So, I really thank all of you for your report. I know there 
was a number of things I wanted to ask in regards to missing 
deadlines and some of the lack of prioritizing these issues, 
but again, I really appreciate and appreciate the chairwoman's 
intention in making this a critical issue to address. So, I 
really appreciate that.
    Thank you, and I yield.
    Mr. DeSaulnier. Thank you. And the chair now recognizes the 
gentleman from Kansas, Mr. LaTurner, for five minutes.
    Mr. LaTurner. Thank you, Mr. Chairman. I want to thank you 
for holding this important hearing to help the committee to 
really focus on its primary mission to investigate, locate, and 
root out all fraud, waste, and abuse from the Federal 
Government, an enormous task already, with expected F.Y. 2021 
budget outlays nearly $6 trillion, but one that has been 
greatly complicated over the past 12 months with soon to be $2 
trillion in new spending for COVID-related and mostly unrelated 
spending.
    I want to applaud the Comptroller General for his 300-page 
report detailing just how much Congress is failing in this 
central mission of making sure that every hard-earned taxpayer 
dollar is being spent in a responsible and worthwhile manner. 
But this is far from a partisan issue. Both sides have failed 
in cleaning up this mess. We know that during the past 15 years 
alone, this effort by GAO has saved nearly $575 billion, 
including $225 billion just these past two years.
    I am afraid to even consider what percentage of the total 
Federal budget is lost to waste, fraud, and abuse. I can only 
imagine. Now, more than ever, with new programs created by the 
CARES Act, including the roughly $350 billion Provider Relief 
Fund and the nearly $750 billion Paycheck Protection Program, 
it is critical that Congress and in particular this committee 
work together to ensure these new moneys are going to people 
who have legally demonstrated they are qualified to receive the 
funding.
    But that is not all. I especially want to touch upon the 
growing unemployment claims fraud scandal that has impacted our 
Nation and, frankly, robbed my home state of Kansas. Last year, 
Congress authorized the expenditure of hundreds of billions of 
dollars for both the Federal pandemic unemployment compensation 
program and the pandemic unemployment assistance program for 
self-employed workers.
    This dramatic increase in funding has overwhelmed state 
systems, including Kansas, that were wholly unprepared and 
failed to respond to the wave of fraudulent claims after 
several red flags were present and obvious. In Kansas, we lost 
an estimated $600 million in false claims, according to a 
legislative post audit report released last month. That is 24 
percent of claims. This is money we are all likely to never get 
back. Nationwide, the U.S. Department of Labor believes the 
figure is roughly $63 billion during this last year.
    Madam Chairwoman, I would like to submit the Kansas state 
audit report and a Kansas delegation letter to Governor Kelly 
for the record.
    Mr. DeSaulnier. Without objection.
    Mr. LaTurner. Thank you.
    While I understand these are state-run programs, it 
involves billions of Federal taxpayer dollars with language 
requiring certain integrity measures that are put in place. So, 
I would appreciate your perspective on this subject.
    It is my understanding that the GAO threshold to make the 
High-Risk List is $1 billion. Help me understand why the 
various Federal pandemic unemployment system programs, with an 
estimated fraud level of $63 billion for 2020, didn't make your 
list.
    Mr. Dodaro. Well, we considered that, and they're going to 
continue to look at that issue. We haven't had a chance to look 
in depth at it at this point in time, but we will consider it 
as we move forward.
    Mr. LaTurner. Could you talk about the process of 
consideration and what facts you are bringing to bear in making 
that decision?
    Mr. Dodaro. Yes. Well, we have work underway looking at the 
system, at what needs to be done in order to fix it. In a lot 
of cases, one of the factors that we consider in putting 
something on the High-Risk List is that GAO has some 
recommendations for how to address that issue. Now given that 
most of these unemployment systems are state by state 
determined in terms of the criteria for looking at them and 
also the factors, so there could be different reasons in each 
state. So, we're going to have to look very carefully at this 
and decide whether we have, after we looked at it carefully, 
have appropriate recommendations to make so that we could point 
to what needs to be done that gets the agencies off the High-
Risk List.
    It's not enough to just say there's a big problem, but we 
have to have something that we bring to bear in order to say 
how it should be fixed. And in this case, the fixes are state-
centric, and so we need to really inform ourselves on how to go 
about this. We typically don't have--make recommendations to 
individual states to fix their systems.
    Mr. LaTurner. Could you give me--my time is running out. 
Could you give me a timeframe, and are you willing to come back 
to this committee and report any findings? A timeframe for the 
decision?
    Mr. Dodaro. Yes. Well, I'd have to get back to you on the 
timeframe. I'm not sure exactly where that work stands right 
now, but we'd be happy to come back and talk about it, though. 
I'll provide a timeframe for the record.
    Mr. LaTurner. Thank you for your time, and thank you, Mr. 
Chairman.
    Mr. DeSaulnier. I thank the gentleman. And I will recognize 
myself at this time. Just want to add my congratulations to a 
job well done, as every year, to you and your staff. Really 
terrific work.
    On the comments from my friend across the aisle from Texas, 
we would like to work with you and him on the issues of 
incentivizing good performance and performance-based budgeting. 
When I was on the executive board of the National Conference of 
state Legislatures, we did a lot of work with your colleagues, 
or they did, to try to get those best practices. And I will say 
that very successful program here in my district years ago when 
I was a county supervisor, we were actually able to target at-
risk kids by Census track over time.
    But the funding and the incentives were given us by 
foundations, and it put us in a position to save quite a bit of 
money now 20, 25 years later to look at what we did and really 
become a national model. So, I would love to work with you on 
that. Incentivizing good performance and reinvesting those cost 
savings are of great interest to me.
    Specifically, I would like to talk to you about your report 
on the Office of National Drug Control Policy. We know opioids, 
and this committee has done a lot of work in this area, and 
thank the chairwoman for bringing Purdue Pharma and the 
Sacklers here for a memorable hearing just recently. But the 
costs of drug abuse in this country, $600 billion, according to 
NIH, and treatment is--helps us $12, for every $1 spent saves 
us $12.
    So, Mr. Dodaro, you recognized this before the pandemic, 
but you held off the release of your recommendations, as I 
understand it. Can you talk a little bit about that and the 
context, as your staff has said, in this terrific book that I 
just finished, ``Diseases of Despair,'' about the continued 
increase in diseases of despair--suicide, alcoholism, and drug 
abuse--and not just the human suffering, but the cost to state, 
local government.
    So, COVID has made a very difficult problem worse. Could 
you talk a little bit about that and then maybe specific 
comments about the previous administration, in my view, really 
poor performance, and the metrics we need to improve the 
National Drug Control Office?
    Mr. Dodaro. Yes. First, we did designate our intention to 
add it formally to the High-Risk List in March 2020, but we did 
not withhold our recommendations. I mean, we made specific 
recommendations at that point about what needed to be done to 
make the strategy, the national strategy meet all the statutory 
requirements. We felt it was appropriate to not distract from 
the efforts to focus on the pandemic at that point in time. So, 
we didn't withhold the recommendations, just the formal 
designation to add it to the High-Risk List.
    The pandemic, you know, complicated. We did realize, even 
back last March, that the pandemic was likely going to 
exacerbate some of the underlying problems that lead to drug 
abuse in the first place, which are unemployment, isolation, 
depression, and other things that were happening potentially to 
people who were vulnerable to those type of issues during the 
pandemic or a lockdown period of time. And indeed, some of the 
early data that's available from CDC show an increase in the 
March, April, May timeframe that I referred to earlier, during 
the--the preliminary data on the amount of COVID deaths due to 
overdoses. Not COVID deaths, due to--deaths due to overdoses at 
that point in time.
    Now some of the things that need to be done that are 
missing is the law calls for a five-year resource plan for each 
area that's required. That hasn't been done yet, and these 
problems are not going to get solved looking at it only a year-
by-year basis. You need to have a long-term plan.
    The treatment area, there's only--there's 30 percent of the 
counties in the United States that don't have access to 
substance abuse disorder treatment for people so that there's a 
huge problem there as well. There needs to be more 
coordination. We pointed out where some of the agencies are 
pursuing plans, but it's not clear how their plans contribute 
to the national strategy, and there needs to be more evaluation 
of what's working and what's not working and more engagement 
and coordination with the private sector, state and local 
governments, healthcare providers, law enforcement, and others 
because this is a multifaceted problem.
    Mr. DeSaulnier. I really appreciate it and look forward to 
continuing the conversation. I do want to mention legislation 
that was passed last session that was spearheaded by our former 
chair Elijah Cummings to help facilitate with the coordination. 
I hope we can work on that, make that successful with this 
administration.
    Thanks again so much.
    I would now like to recognize the gentleman from Wisconsin, 
Mr. Grothman, for five minutes.
    Mr. Grothman. Yes, I would like to talk about the drug 
abuse programs myself again. I wish it was true that you could 
spend $1 and save $12. I always wonder if those studies are 
right on point, you know, that you can spend $1 and save $12.
    But in any event, over time, seems to me we have spent more 
and more money on drug abuse, at least it seems to me that we 
brag about the amount we are spending. Nevertheless, we still 
are around 80,000 lives lost a year, which is really tragic. 
And I would think, given all the money we are plowing into 
this, that we would begin to make some progress.
    We all have--or at least I have reasons why I think we are 
not doing a very good job here. But given that we keep throwing 
more dollars at it, are there any programs in the drug abuse 
field that we feel have failed and have eliminated or cut back 
on? Given that we hit records every year in the number of 
people who die, or at least recently we do, I would assume some 
of these programs are failing.
    Mr. Dodaro. Well, one of the areas we point out is a lack 
of evaluations in some of these programs. Let me ask Ms. 
Clowers, who's director of our healthcare area, if she wants to 
add anything.
    Ms. Clowers. I would add two points. In terms of the ONDCP 
strategy that has been put out, this is an area where we have 
pointed out the strategy needs to be improved, that they do 
need performance measures for efforts that are ongoing so we 
can assess whether programs are making progress or making a 
difference.
    The second point I would mention is that we do have ongoing 
work looking at the different grants that are being provided to 
states to help combat the opioid epidemic, and we will be 
looking to examine what we are getting with those funds.
    Mr. Grothman. Yes, I mean, it frustrates me because this is 
an issue that I care deeply about. And of course, because 
everybody cares for it, you keep voting for more and more. But 
when you--and I assume there is a lot more money being spent 
today than, say, six or seven years ago, but it seems the 
number of people who die just keeps going up. And part of it 
could be the COVID, but in any event, when you plow this much 
money into a program or programs with a promise that we are 
going to fight this overdose stuff and it keeps going up, is 
anybody ever weeding out the bad programs so we have money left 
for the good program? And you are telling me that doesn't 
happen?
    Mr. Dodaro. Not as rigorously as it should. That's one of 
the reasons we elevated it to the High-Risk List is to make 
sure that there is more focus on this and there is more 
evaluation of these programs, so we can tell what works and 
what doesn't work and make adjustments to those.
    Mr. Grothman. Yes. And as far as you know, there are no 
programs that categorically are wiped out for being no good, or 
when we send out the grants, we are not going to send it to 
these programs. It is just kind of up, up, up all the time?
    Mr. Dodaro. Well, I'll go back and take a look at that and 
see if there's anything that we've done along those lines, and 
I'll provide an answer for the record.
    Mr. Grothman. Yes. We have had several programs on the 
High-Risk List since the 1990's, which is concerning. You know, 
when we identify a problem, you would like to think in 30 
years, we would begin to address it.
    One of those are improper payments to Medicare, and that 
can be wildly expensive, of course, because doctor bills are 
wildly expensive. But it is still on the program 30 years 
later. Can you tell us why it is apparently not addressed or 
not addressed enough to keep it off the list?
    Mr. Dodaro. Actually, the improper payments are coming down 
in the Medicare area. So, I've been pleased that there's been 
some progress in that area.
    It's also on the list because of the restructuring and the 
move from paying people for the quantity of services to get the 
quality of healthcare in there as well. So, there are some 
reforms that need to be made. We've made some recommendations 
to the Congress to give authority for recovery auditors to look 
at things prepayment. We've also suggested that CMS more use 
prior authorization before they make payments and to expand--
they've done this for pilot programs that have been successful. 
Where they've saved money, prevented improper payments, and 
it's not affected the ability of people to get services, that 
they expand that more often.
    Actually, the bigger problem now is Medicaid improper 
payment. Medicaid improper payments for last year over $85 
billion, compared to $42 billion in Medicare. So, Medicare is 
coming down. It can come down further with implementation of 
our recommendations. Medicare is dramatically increasing--
Medicaid, rather, excuse me.
    Mr. Grothman. They are similar programs. Why is Medicaid 
such a bigger problem than Medicare?
    Mr. Dodaro. Well, you have a lot of different state 
programs and rules. Each state has their own different Medicaid 
program. Medicare, you have more uniformity across the program, 
and it's run by the Federal Government versus a partnership 
with the individual state programs. We've expanded Medicaid 
quite a bit in the Affordable Care Act and also with the recent 
pandemic. And so the programs are changing quite a bit.
    One of the reasons it's going up so fast now is that some 
of the states aren't doing enough to enroll providers and make 
sure that the providers that are enrolling are eligible to 
provide services under the program. So, and the managed care 
portion of Medicaid, which started out as a small program, is 
now about half of the spending, and there is still not enough 
scrutiny, in my opinion, over the managed care portion of 
Medicaid.
    Mr. Grothman. Thank you.
    Chairwoman Maloney. [Presiding.] Thank you. The gentlelady 
from California is recognized. Representative Porter?
    Ms. Porter. Thank you very much, Madam Chair.
    Mr. Dodaro, is it correct that the Federal Government fails 
to collect taxes that it is owed to the tune of about $400 
billion a year?
    Mr. Dodaro. That's correct. That's the gross amount. The 
IRS is--go ahead, please.
    Ms. Porter. That is the gross amount. And we call this--
this is often referred to as the ``tax gap,'' but it seems to 
me it is really more like a canyon in terms of the amount of 
money. So, this is one of the charts from your report, and it 
shows the gap right here between the blue, which is what is 
owed, and the green, which is what is collected. And we collect 
about 11 percent of what--of this missing amount.
    So, what your report shows is that of the $458 billion that 
is this tax gap, after the IRS engages in enforcement, they 
only collect this blue portion, and all of this red portion--
and that is a lot of zeroes there--$406 billion goes 
uncollected. Based on the GAO studies over the years, has this 
amount, this tax gap, gotten smaller? Are we tackling this 
problem year after year and working on it?
    Mr. Dodaro. We're not as successful as a government at IRS 
that I'd like to see. The problem is not getting better. It's 
stayed actually about the same over the period of time. There 
are some recommendations----
    Ms. Porter. So, on average, every year, we fail to collect 
$406 billion?
    Mr. Dodaro. Well, they think they'll collect some. The net 
tax gap or what they definitely don't think they collect is 
$381 billion, but you're--it's in the ballpark. So, yes, that's 
true--that's true.
    Ms. Porter. For a person like me, $381 billion, $400 
billion, it is all just a lot of zeroes that is not being paid. 
I have a question for you. In your GAO high-risk report, you 
say that this is relating to staffing problems. So, has IRS 
been increasing its staffing so that we can collect what we are 
owed as taxpayers?
    Mr. Dodaro. Staffing has only been going recently up. It's 
been declining over time, and I think they're not back up to 
the 2010 levels yet. Let me ask Mr. Mihm to give you an 
example. But the problem is not just staffing. There are some 
other things that could be done. Chris?
    Ms. Porter. What are those other things?
    Mr. Dodaro. I think Congress should regulate, authorize IRS 
to regulate the paid tax preparers, No. 1. Some of the studies 
that we've looked at using their data, in some cases taxpayers' 
accuracy is more accurate than people that use paid tax 
preparers, particularly in the earned income tax credit area.
    Second, there ought to be more information returns prepared 
so that the IRS could match data. For example, for real estate, 
people that fix up their real eState property, to report that, 
as well as businesses, corporations that have services. They 
can report that data. The IRS could cross-check it to the 
providers to see what they're reporting.
    Ms. Porter. So, Mr. Dodaro----
    Mr. Dodaro. There's also--yes.
    Ms. Porter [Continuing]. I just have a sort of basic 
question. Who benefits from failing to collect taxes that are 
owed?
    Mr. Dodaro. Only the people that owe them that are not 
paying them.
    Ms. Porter. So tax cheats, tax underpayers, delinquents, 
that is who is benefiting. Who is being hurt by this failure to 
collect between $381 billion and $406 billion on average a 
year? Who is being hurt?
    Mr. Dodaro. Well, the Americans are getting hurt. The 
people that are----
    Ms. Porter. Americans are getting hurt.
    Mr. Dodaro. The people that are paying their taxes and the 
other people that aren't paying taxes because they're too 
young, but we're borrowing money to pay for things that they're 
going to have to pay for in their generations ahead. So, 
everybody is getting hurt by it.
    Ms. Porter. OK. So, everybody is getting hurt at the 
expense of tax cheats or tax frauds who are getting helped.
    Mr. Dodaro, what is the GAO's motto?
    Mr. Dodaro. Our motto?
    Ms. Porter. Mm-hmm.
    Mr. Dodaro. Accountability, integrity, and reliability is 
our core values.
    Ms. Porter. OK. On your recent reports, you have this 
slogan, ``A century of nonpartisan fact-based work.'' Does this 
ring a bell?
    Mr. Dodaro. It does. This is our 100----
    Ms. Porter. A century of nonpartisan fact-based work. I 
wish that Congress could have that as its motto for even one 
day, much less a century. Does the GAO sell T-shirts with that 
motto, ``A century of nonpartisan fact-based work,'' because I 
would totally buy one of these T-shirts. I would buy them for 
all my family and give the money to the IRS to enforce against 
collecting taxes from people who are cheating the rest of us.
    With that, I yield back.
    Chairwoman Maloney. The gentlewoman yields back. I now 
recognize the gentlewoman from New Mexico, Ms. Herrell.
    Ms. Herrell. Thank you, Madam Chair.
    And thank you so much, Mr. Dodaro, for being here. It is 
incredible, and I kind of want to echo what my colleague have 
said. It is just almost too much for one committee hearing 
because there is so much information. So, I just appreciate all 
of your comments, and if I am redundant, I apologize. I ran to 
vote.
    But something one of my colleagues was saying earlier, 
there are so many programs, and you had mentioned earlier that 
it is sometimes hard to know exactly how many there are. But 
are there programs that have been funded or happening for years 
and years where maybe we need to take, think about maybe a 
different approach? Think about things outside the box?
    Maybe like Einstein says if you keep doing the same thing 
over and over and you still get the same results, perhaps it is 
time to change your thought process. And I am wondering, are 
there things that you see that maybe Congress could be doing 
very differently to help either have more accountability or 
more success so that we don't see this number of programs on 
this High-Risk List? Does that make sense?
    Mr. Dodaro. Yes, yes. Yes, well, we have, as I mentioned, 
just in the tax area, recommendations for Congress to act, to 
give IRS the authority to do this. We have a number of 
recommendations for Congress to act on that we think can be 
helpful in helping resolve these areas.
    I mentioned that we talked about the Postal Service before. 
There is actually 14 of the high-risk areas that the solution 
to solving that involves congressional action. Surface 
transportation, Postal Service, for example. So, we've 
highlight where Congress needs to act that could act on those 
areas.
    Now with regard to the programs I mentioned earlier, I 
think Congress ought to insist on having program evaluations 
that demonstrate the success of the program before continuing 
to fund it often at increased levels. So that, I think, would 
be a game changer that I think would get the attention of a 
number of advocates of those programs to really do, you know, 
investigations and evaluations.
    Ms. Herrell. And I agree with that. And just looking at it 
from the lens of our constituents, it is different. They are 
not in the halls of Congress. They don't hear the conversations 
and even understand always some of the dialog that is taking 
place.
    And so I can--just to kind of simple it down, I can tell 
you what they will ask me in my district. It will be things 
such as how are we sending money to foreign countries or maybe 
for aid or for different programs, sometimes to not even 
countries that are our allies, when we can see that we have 
possible trouble heading our way with the Highway Trust Fund, 
like you mentioned, or Social Security or Medicaid, you know, 
or even updating the computer systems in the IRS.
    And I am just asking is this solely resting on the 
shoulders of Congress to do a better job in allocations, or is 
this something that these departmental programs can come 
forward with where we can work collectively? But do you see 
where I am going with this? People don't understand how we are 
sending so much money overseas in some cases, but yet not 
taking care of, say, our infrastructure, the IT, and other 
things that really have a direct impact on some of these 
programs.
    Mr. Dodaro. Well, you have two dimensions here. You have 
the President, on behalf of the administration, recommending 
funding for these programs. But the ultimate decision lies with 
Congress as to whether they're going to fund the programs or 
not.
    Ms. Herrell. Right.
    Mr. Dodaro. That's not, you know, a prerogative of my 
organization. Our job is to advise the Congress and so that 
they can make informed decisions. But those ultimate decisions 
about the policy priorities of the Government rest in Congress' 
hands.
    Ms. Herrell. Right. And I am just going to shift gears just 
a little bit because I come from a border state, and just can 
you discuss the work of GAO as it relates to drug trafficking 
across our border and areas of improvement your agency found 
the Government needs to make to intercept drugs and improve 
border security? Because I know that has just been issue we 
have been seeing for decades, but just your thoughts on that.
    Mr. Dodaro. Oh, yes. We've done a lot of work in that area 
and have recommendations. I'd be happy to provide those for the 
record.
    Ms. Herrell. Great, great. Because it just--what concerns 
me is, obviously, we have this crisis, the drug overdose, all 
over the country. And certainly, we see it in New Mexico, and 
we understand that a lot of drugs, illicit drugs are coming 
through those southern borders, and other ports everywhere. But 
I am thinking that opening the borders might compound this if 
it feels like we are starting to see some improvement on that.
    But I can see that Congress has a lot of work to do, and 
again, I really appreciate your comments today.
    And Madam Chair, I wish we had more----
    Mr. Dodaro. I think the issue there, we need to focus on 
the border and the interdiction of drugs. But we really need to 
work on bringing the demand down. As long as there is demand 
for the product, the product is going to find its way here.
    Ms. Herrell. Right.
    Mr. Dodaro. And that's something that we've never been 
successful on in the Government as long as I've been here, and 
I've been here a long time. And that's one of the reasons I 
decided to try elevate it to the High-Risk List to get some 
greater attention on the education and prevention front of this 
thing as well as the interdiction and, of course, treatment 
programs, but we haven't quite found the magic formula to 
balance the dimensions to make any progress in this area.
    Ms. Herrell. Right. That makes sense, and it does. And I 
appreciate those comments.
    And Madam Chair, thank you for the additional time, and we 
have our work to do for sure. So, thank you, Madam Chair.
    Chairwoman Maloney. Thank you. The gentlelady yields back. 
The gentleman from Georgia, Mr. Johnson, is now recognized. Mr. 
Johnson?
    Mr. Johnson. Thank you, Madam Chair.
    And Mr. Dodaro, thank you for being here today, and I agree 
fully with you, and I would go further to say that the war on 
drugs has been an abysmal failure in this country. But I want 
to ask you about the FDA. The coronavirus pandemic has put 
immense pressure on all facets of our healthcare system, 
including the U.S. Food and Drug Administration, which has been 
working, by the way, nonstop to facilitate the approval of 
COVID vaccines and drug therapies. This work has been further 
complicated by drug shortages and inept leadership from the 
previous administration.
    Drug shortages are not only a serious threat to Americans' 
health and safety, they are also incredibly expensive. In 2019, 
a survey found that drug shortages cost hospitals $360 million 
annually in labor costs alone. Of the 6,000 healthcare 
facilities surveyed, more than half faced at least 20 shortages 
during the six-month study.
    Today's report highlights the important role the FDA plays 
in addressing drug shortages and why their role is particularly 
important during a global pandemic. Has the problem, sir, of 
drug shortages been more severe or become more severe because 
of the COVID-19 pandemic?
    Mr. Dodaro. I want to ask Nikki Clowers, the head of our 
healthcare team, to answer that question. Nikki?
    Ms. Clowers. Yes, I think what the pandemic has done is 
shown the vulnerabilities that we have in our drug supply 
chain. As many--as you probably know, most of our generic drugs 
are manufactured overseas. And so whenever there is a crisis or 
other disruption in the supply chain, that can affect the 
availability of drugs and lead to drug shortages.
    We have made recommendations to FDA to help them better 
manage drug shortages. It is certainly not only an FDA 
responsibility. It is a shared responsibility, and the private 
sector is involved. But we think there is more that FDA could 
do in terms of using data and trying to forecast where there is 
different drug shortages.
    We also recently made----
    Mr. Johnson. OK. Well, let me stop you right there and move 
on.
    In 2019, the FDA's drug shortages task force put out a 
report to mitigate--on how to mitigate drug strategies. How 
useful were those recommendations in confronting the drug 
shortage challenges posed by the pandemic under the previous 
administration?
    Ms. Clowers. They were useful in that providing steps that 
both FDA could take as well as the private sector in terms of 
risk management and better contracting.
    Mr. Johnson. Was the FDA able to take those steps that were 
recommended under the previous----
    Ms. Clowers. They are taking----
    Mr. Johnson [Continuing]. Under the previous 
administration?
    Ms. Clowers. They are in the process of implementing those 
recommendations, and I can report back to you as we get more 
information about the status.
    Mr. Johnson. OK. Well, I know that you don't want to 
comment about the previous administration. But the FDA was not 
equipped to predict drug shortages caused by former President 
Trump, who incessantly tweeted unproven assertions that certain 
drugs were effective in treating COVID-19. Trump threatened the 
health of hundreds of millions by spreading false information 
about treatments for COVID-19 and creating mass demand for 
drugs that patients with lupus or rheumatoid arthritis relied 
upon.
    And his assertions led to widespread shortages of those 
medications across the country, and he didn't stop there, 
though. He went further, contacting the FDA and bullying the 
Administrator into issuing an emergency order allowing the use 
of those drugs to treat COVID-19, when, in fact, there was no 
evidence that those drugs were efficacious. These drugs were 
more than just ineffective, they could have potentially caused 
dangerous side effects depending on the patient.
    Mr. Dodaro, do you think or do you believe--or let me ask 
you this. How did Trump's actions constitute a direct public 
health threat?
    Mr. Dodaro. Well, I mean--there--you know, I mean, my 
belief is in science, and I think that the scientists should 
speak out on these issues and that there needs to be 
authoritative scientific underpinning of decisions we've heard.
    Mr. Johnson. And let me ask you this question. In your 
opinion, do actions taken by the FDA Administrator, pursuant to 
President Trump's order, merit further investigation.
    Mr. Dodaro. We are actually looking at the political 
influence on FDA and CDC, and we'll be reporting our results to 
the Congress.
    Mr. Johnson. Thank you, and I yield back. Thank you, Madam 
Chair.
    Chairwoman Maloney. The gentleman yields back. The 
gentlelady from the great state of New York, Ms. Ocasio-Cortez, 
is now recognized.
    Ms. Ocasio-Cortez. Thank you very much, Chairwoman Maloney.
    And thank you, Mr. Dodaro, for coming in front of us today 
and offering your expertise in some of these issues, emerging 
issues that we should be keeping an eye out for.
    Now you are the Comptroller General of the United States. 
Correct?
    Mr. Dodaro. That's correct.
    Ms. Ocasio-Cortez. And you know, for some of my 
constituents in community watching at home, that means, among 
your many other responsibilities, you kind of keep an eye on 
the books for the United States. Would that be fair to say in a 
broader sense?
    Mr. Dodaro. Yes. Books and programs, all Federal activity.
    Ms. Ocasio-Cortez. Wonderful. Thank you.
    So, before I begin, Madam Chairwoman, I would like to ask 
for unanimous consent to submit a Pro Publica article on 
Facebook on enforcing tax law and a letter from 88 national 
organizations urging President Biden and Congress to invest in 
fair enforcement of the tax law to the record.
    Chairwoman Maloney. Without objection.
    Ms. Ocasio-Cortez. Thank you. Thank you very much.
    So, Mr. Dodaro, let us talk about taxes. If I was the CEO 
presently of a large international corporation that was founded 
here in the United States and wanted to manipulate my taxes and 
park the profits somewhere else, do you think I would be able 
to get away with that in our current system?
    Mr. Dodaro. Well, there's a lot of potential loopholes in 
the current system that can be exploited.
    Ms. Ocasio-Cortez. Thank you. And you know, actually, 
according to this Pro Publica article, it seems that some 
records have been unearthed, and Sheryl Sandberg wrote in 
April, an April 2008 email that ``My experience is that by not 
having a European center and running everything through the 
U.S., it is costly in terms of taxes.''
    And Facebook's head of tax actually replied to Sandberg in 
these records that the company needed to find a ``low-tax 
jurisdiction to park profits.'' And it found that jurisdiction 
in Ireland, where its tax rate is near zero.
    Now why would Facebook, do you think, want to do that?
    Mr. Dodaro. Well, there's different tax advantages. I'm 
going to have--Mr. Mihm is our expert in the tax area. I'm 
going to ask him to help comment.
    Ms. Ocasio-Cortez. Sure, of course.
    Mr. Dodaro. Because we've looked at some offshoring kind of 
issues. Chris?
    Mr. Mihm. Thank you, sir. And yes, ma'am. We have looked at 
offshoring and, as you are suggesting, that there are various 
tax advantages to where major corporations claim that their 
businesses are taking place. And they are fully aware of those 
tax advantages, and they use those to their advantage to 
minimize the amount of taxes that they have to pay.
    So, that is an important consideration in business 
decisions. Yes, ma'am.
    Ms. Ocasio-Cortez. Thank you so much, and I appreciate that 
answer. You know, and I would actually kind of contest this 
term ``tax advantage,'' because it may be an advantage to an 
individual corporation, but we currently have an enormous tax 
gap in the United States. Would you say that that is correct, 
Mr. Dodaro?
    Mr. Dodaro. That's correct.
    Ms. Ocasio-Cortez. And so weakened tax enforcement actually 
rigs this economy against workers. It seems as though we are 
starting to see a pattern where the IRS is starting to go a 
little bit more after lower-income people that target the EITC, 
and this is kind of referenced due to the lack of resources 
that the IRS currently has. Would that be fair to say?
    Mr. Dodaro. Well, the amount of enforcement efforts and 
auditing of the tax returns has been going down as a 
percentage. I'm not sure what the current mix is.
    Ms. Ocasio-Cortez. Yes, and so it seems like companies like 
Facebook have kept billions of dollars in tax breaks through 
tactics like offshore tax evasion. But working families are 
struggling to pay rent, put food on the table, and stay alive. 
And in fact, we are constantly told that we cannot afford 
tuition-free public colleges, expansion of healthcare in the 
United States because we can't afford it.
    The official estimates peg the national tax gap at $381 
billion per year, but the former Commissioner Charles Rossotti 
estimates that it is now closer to $600 billion.
    Mr. Dodaro, does any other item on the GAO's High-Risk List 
come anywhere close to having a $600 billion impact on the 
Federal budget?
    Mr. Dodaro. Not any one single item alone.
    Ms. Ocasio-Cortez. So, this seems to be one of the largest 
areas of having a negative impact on our Federal budget. It is 
tax evasion and other sorts of----
    Mr. Dodaro. Yes. Yes, there are two others that have 
potential large areas. One is healthcare, improper payments in 
healthcare, which are over $100 billion a year. And the defense 
weapon systems, where there is a portfolio of $1.8 trillion.
    Ms. Ocasio-Cortez. All right. Thank you very much. 
Appreciate it.
    Mr. Dodaro. Madam Chair, Madam Chair, would it be possible 
for me to have five minutes before we continue?
    Chairwoman Maloney. Certainly. We will recess for five 
minutes.
    [Recess.]
    Chairwoman Maloney. We're now in session. The gentleman 
from Texas, Mr. Fallon, is recognized for five minutes.
    Mr. Fallon. Madam Chair, thank you very much.
    Comptroller General Dodaro, thank you for taking the time. 
It has been a fascinating committee hearing. And thank you for 
the important work that you are doing and the service you are 
providing to our country and our taxpayers.
    I have got a couple of questions. Medicare has been on the 
High-Risk List for over 30 years, and I am not surprised 
because when I was in the Texas legislature, it was one of the 
things that I learned about was the fraud that we saw just at 
our level in the state and in Texas. And it was, according to 
our Inspector General, in the hundreds of millions of dollars 
provable and potentially and probably in the low billions.
    And again, that is just Texas. So, I shudder to think what 
the actual costs are when you look at 50 states.
    So, my first question is, do you share my concern about the 
massive potential and actual fraud that could exist within the 
Medicaid program, Medicare program and the process? And if you 
do, do you have any idea of possibly a ballpark figure of what 
that realistic potential fraud could be across the country?
    Mr. Dodaro. Yes. Well, I share your concern about it 
clearly, both for Medicare and Medicaid, all right, in those 
two areas. I do not have a figure for you. It's hard to 
calculate. There are figures on improper payments that are 
made. These are payments that should not have been made or made 
in the wrong amounts.
    Now they would include--Now any fraud would be an improper 
payment by definition, but not all improper payments are fraud 
because you have to prove an intent and criminality. Last year, 
the amount of improper payments in Medicare and Medicaid 
combined were over $100 billion, all right? But again, that's 
not all fraud, but it's indicative of an issue.
    And I believe that the amount of improper payments 
estimated for Medicaid is an underestimate. The numbers are 
big.
    Mr. Fallon. I would also like to share with the committee 
and the other members that when I asked our Inspector General a 
very innocent question, what I thought which was, when someone 
is audited, in this case, Medicaid, what percentage of those 
physicians or the offices that are giving the medical care had 
their billing lowered the next month? And it was 100 percent, 
all of them, which is alarming, obviously, for clear reasons.
    But the Medicare program has been on the list, as I 
mentioned earlier, year after year for three decades. What 
suggestions, if any, would you have today that we could 
implement to finally hold the Medicare program accountable and, 
as a result, of course, reduce this massive taxpayer theft and 
reform Medicare and Medicaid so that they can actually earn 
their way off the list?
    Mr. Dodaro. Well, there's a couple of things. One is we 
think they should expand the prior authorization. They tested 
prior authorizations. This provides greater assurance that you 
are spending the money for a legitimate purpose to a legitimate 
provider for a legitimate medical reason before you spend the 
money. You don't have to worry about trying to get it back 
later.
    It's been proven in pilot projects, but it hasn't been 
expanded because it will save money and it won't affect the 
services' timeliness or the services to the individual if done 
properly.
    Second, it's been shown that recovery auditors who actually 
audit some of these things after the fact can audit prepayment 
in some of these areas. That will reduce that issue as well. 
So, those are two recommendations off the bat.
    The other reason Medicare is on the High-Risk List is that 
it's undergoing a transformation right now to sort of pay 
people for not quantity of services, but the quality of 
services, and that transformation is underway and not anywhere 
near complete. But let me ask Ms. Clowers if she has any other 
recommendations. She's our healthcare head.
    Mr. Fallon. Yes, thank you. Thank you.
    Mr. Dodaro. Nikki?
    Ms. Clowers. Yes. One more recommendation in the Medicare 
area would be for CMS to do more work on their risk adjustment 
scores. That is when we see coding differences between fee-for-
service, for example, versus then the payments that are made 
under managed care or the Medicare Advantage. We want to make 
sure that those coding differences are taken into account so we 
are not overpaying for the services provided. We have a 
recommendation in that area.
    And then on the Medicaid front, the Comptroller General has 
also mentioned this a little bit earlier. But in the managed 
care area, there is not a sufficient medical review of the 
payments and services that are made, and we think that area 
needs a great deal of attention as the care that is being 
provided through managed care now accounts for almost half of 
all Medicaid spending.
    Mr. Fallon. Thank you, Madam Chair. Thank you, Madam Chair. 
I yield back.
    Chairwoman Maloney. The gentleman yields back. The 
gentlelady from Missouri, Ms. Bush, is recognized for five 
minutes. Ms. Bush, you are now recognized.
    Ms. Bush. Thank you, Madam Chair.
    St. Louis and I thank you for convening this hearing today, 
and thank you to Mr. Dodaro for being here.
    I will ask today for the thousands of people who urgently 
need a voice in this room, the environmental violence of the 
Departments of Energy and Defense has emblazoned my community 
with extremely hazardous radioactive waste. Nothing could fully 
capture what it was like for people to find out that their--
that nearly everyone from their high school was sick with rare 
cancers or dead. That is real life for people along Coldwater 
Creek in St. Louis.
    The Department of Energy knew that Coldwater Creek was 
dangerously contaminated in the 1960's. Mr. Dodaro, based on 
what you know about DOE environmental liabilities, would you 
guess that the creek is cleaned up today?
    Mr. Dodaro. Well, there hasn't been as much progress as I 
think there needs to be made, and the cost to the Government to 
clean up keeps going up, despite spending billions of dollars, 
because they don't really have a risk-based approach to 
addressing those issues.
    Ms. Bush. OK well yes. You are right. Yes, it is certainly 
not.
    The CDC has estimated that as many as 350,000 people in 
North County, my community, have been exposed to radioactive 
waste. The creek runs through the Florissant area and several 
other towns in my district. We are not talking about a distant 
problem. I am in the room, actually. I lived by this creek, and 
the basement of my townhouse would flood with potentially 
radioactive water all the time. My son's room was in that 
basement.
    Mr. Dodaro, based on what you know about these two 
departments, would you take over the lease at that townhouse, 
or would you take your kids to the nearby playground?
    Mr. Dodaro. Based on the circumstances that you're 
explaining, I don't think so.
    Ms. Bush. Well, and I am a nurse. I would never let you do 
it. One day, I opened my door, and there were butterflies, 
dozens, lying on the ground with their wings opened, like 
nothing I had ever seen. I realized something must be very, 
very wrong, but we had no idea what was happening.
    Most people still don't know what is happening even right 
now. The Army Corps of Engineers is slowly conducting a cleanup 
in St. Louis under the FUSRAP program. They have estimated that 
some black and brown communities won't be cleaned up for 20 
years.
    Eyewitness accounts state that the Corps and contractors 
like those mentioned in the report have been seen picking 
random houses on a street to test soil without even notifying 
neighbors who are growing gardens. There are still no signs, no 
signs at the creek warning people of the dangers.
    Mr. Dodaro, would you say that the DOE has enough money to 
post some type of warning signs along the creek that is giving 
people rare cancers or at least what we believe to be causing 
it?
    Mr. Dodaro. I'll ask--I'll ask Mr. Gaffigan to answer 
further, but DOE has one of the largest budgets in the 
Government. So, I would think they could afford a sign, but 
Mark?
    Mr. Gaffigan. I would only add the reason we put this on 
the list is because we think this is just the tip of the 
iceberg. We think there are a lot more places like Coldwater 
Creek around the country that need to be identified, and we 
need to figure out to what degree we are going to clean them 
up.
    Ms. Bush. Thank you. Thank you.
    The Department of Energy is a ``responsible party'' for 
Coldwater Creek. We have heard that the DOE set aside the 
maximum amount of money, but then deemed it was not all needed. 
My constituents and I, we want to know where does the 
supposedly unneeded money go? Mr. Dodaro?
    Mr. Dodaro. I'm going to ask Mr. Gaffigan on that one.
    Ms. Bush. OK.
    Mr. Gaffigan. Well, we have been critical that DOE has not 
taken a risk-based approach to this, you know, identifying all 
the sites throughout the country and treating it in sort of a 
risk-based approach. And the fact that communities are feeling 
left out is not a good sign.
    Ms. Bush. No, it is not. Thank you.
    I have one final question. Mr. Dodaro, if you were me, 
representing hundreds of thousands of people with potential or 
confirmed toxic exposure, what would you do to massively 
expedite DOE?
    Mr. Dodaro. I mean, I think Congress is empowered to get 
answers from DOE about what their plans are and what they're 
intended to do. So, if I was a Member of Congress, I'd insist 
that they provide answers to the questions to satisfy you about 
what their plans are and what the timeframes are for 
implementing those plans.
    Ms. Bush. Thank you, Mr. Dodaro. I will be following up 
with further questions, a lot of questions.
    And I yield back.
    Chairwoman Maloney. The gentlelady yields back. And the 
gentleman from Kentucky, Mr. Comer, is now recognized.
    Mr. Comer. Thank you, Madam Chair.
    And Mr. Dodaro, thank you for your time. I know you have to 
leave, and you have been with us all day and a press conference 
before that. I just wanted to ask a real brief question.
    Has the COVID-19 pandemic led to an increase in drug abuse, 
and that is what contributed to the addition of a new area on 
the GAO list and that area being the national efforts to 
prevent, respond to, and recover from drug misuse?
    Mr. Dodaro. I want to be clear on this. We were going to 
add that area before the pandemic, and we announced our 
intention to do that March 2020. So, it wasn't a result of the 
pandemic that we added the drug misuse area, but the pandemic 
has complicated that issue.
    Mr. Comer. Isn't it true the number of drug overdoses has 
increased during the pandemic from March to May of--March 2019 
to May 2020?
    Mr. Dodaro. That's true. That's true.
    Mr. Comer. Or March 2020 to May 2021, yes?
    Mr. Dodaro. Yes, right. Right. But if you look at it, we 
have a chart in our report, Congressman, that shows the rate of 
drug increases were going sort of like this. It was, you know, 
on a trajectory. It dropped slightly in 2018, but it bounced 
back in 2019 to go increase again.
    So, it was on a very disturbing trend pattern before the 
pandemic, and it's apparently likely to get worse once all the 
final data is in going forward.
    Mr. Comer. So, what do you think the Federal Government's 
response needs to be to this spike in drug abuse?
    Mr. Dodaro. Well, I think we need to double down on our 
efforts. We need to have a comprehensive national strategy. We 
need to engage--there are 12 different agencies in the Federal 
Government that are considered part of this implementation 
effort. We need to engage the states, localities, and the 
private sector in this area because it affects businesses. It 
affects all parts of our economy.
    So, we need to really make a concerted effort over time 
with the proper resources and investment in order to arrest 
this disturbing trend.
    Mr. Comer. Well, I would add to that, in my opinion, that I 
believe taking steps to reopen the economy and getting people 
back to work certainly would seem to help the situation as 
well.
    But thank you again for being here. I know we have extended 
this meeting beyond the time that we set forth, but I do 
appreciate your service.
    And Madam Chair, I yield back.
    Chairwoman Maloney. The gentleman yields back. And in 
closing, I want to thank the Comptroller for his testimony, his 
service, his report, his press conference earlier today, and I 
know he is testifying shortly before the Senate on the report 
also.
    I also want to commend my colleagues for participating in 
this important conversation, and without objection, all members 
have five legislative days within which to submit additional 
written questions for the witness--to the chair, which will be 
forwarded to the witness for his response. I ask our witnesses 
to please respond as promptly as you are able to.
    And this hearing is adjourned.
    [Whereupon, at 1:51 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
